<html>
<title> - THE NATIONAL INTELLIGENCE ESTIMATE ON THE BALLISTIC MISSILE THREAT TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 106-671]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-671
 
 THE NATIONAL INTELLIGENCE ESTIMATE ON THE BALLISTIC MISSILE THREAT TO 
                           THE UNITED STATES

=======================================================================


                                HEARING

                               before the

               INTERNATIONAL SECURITY, PROLIFERATION, AND
                     FEDERAL SERVICES SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 9, 2000

                               __________

      Printed for the use of the Committee on Governmental Affairs



_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402


                     U.S. GOVERNMENT PRINTING OFFICE
63-638 cc                    WASHINGTON : 2000




                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                  Darla D. Cassell, Administrive Clerk

                                 ------                                

      INTERNATIONAL SECURITY, PROLIFERATION, AND FEDERAL SERVICES 
                              SUBCOMMITTEE

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  DANIEL K. AKAKA, Hawaii
SUSAN M. COLLINS, Maine              CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
JUDD GREGG, New Hampshire            JOHN EDWARDS, North Carolina
                   Mitchel B. Kugler, Staff Director
              Richard J. Kessler, Minority Staff Director
                      Julie A. Sander, Chief Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Cochran..............................................     1
    Senator Akaka................................................     2
    Senator Thompson.............................................    11
    Senator Levin................................................    14

                               WITNESSES
                      Wednesday, February 9, 2000

Robert Walpole, National Intelligence Officer for Strategic and 
  Nuclear Programs, National Intelligence Council................     3
Dr. William Schneider, Jr., Ph.D., Adjunct Fellow, Hudson 
  Institute......................................................    31
Joseph Cirincione, Director, Non-Proliferation Project, Carnegie 
  Endowment for International Peace..............................    32

                     Alphabetical List of Witnesses

Cirincione, Joseph:
    Testimony....................................................    32
    Prepared statement with attachments..........................    71
Schneider, Dr. William Jr.:
    Testimony....................................................    31
    Prepared statement with attachments..........................    54
Walpole, Robert:
    Testimony....................................................     3
    Prepared statement...........................................    45

                                APPENDIX

National Intelligence Council summary report entitled ``Foreign 
  Missile Developments and the Ballistic Missile Threat to the 
  United States Through 2015,'' September 1999...................    91
Report of the Commission to Assess the Ballistic Missile Threat 
  to the United States, ``Executive Summary,'' Pursuant to Public 
  Law 201, 104th Congress, July 15, 1998.........................   107


 THE NATIONAL INTELLIGENCE ESTIMATE ON THE BALLISTIC MISSILE THREAT TO 
                           THE UNITED STATES

                              ----------                              


                      WEDNESDAY, FEBRUARY 9, 2000


                                     U.S. Senate,  
                Subcommittee on International Security,    
                     Proliferation, and Federal Services,  
                         of the Committee on Governmental Affairs  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2 p.m. in room 
SD-342, Dirksen Senate Office Building, Hon. Thad Cochran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cochran, Akaka, Thompson, and Levin.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. The Subcommittee will please come to 
order.
    Welcome to our hearing today on the National Intelligence 
Estimate of the Ballistic Missile Threat to the United States.
    Last year Congress passed and the President signed the 
National Missile Defense Act, which officially stated the 
policy of the United States to be the deployment, as soon as 
technologically possible, of a national missile defense system, 
effective against a limited ballistic missile attack.
    We are now aware that several nations, which may not be 
impressed with our overwhelming missile forces, are working 
hard to build long-range ballistic missiles.
    North Korea is one example. In August 1998, North Korea 
launched a three-stage Taepo Dong-1 ballistic missile. This 
missile demonstrated that despite the economic difficulties and 
isolation of North Korea, it has made impressive progress in 
developing a multi-stage ballistic missile capable of flying to 
intercontinental ranges.
    North Korea appears ready to test an even more capable 
Taepo Dong-2; Iran has tested a medium-range ballistic missile 
and has begun developing longer-range weapons.
    These developments reflect not just a determination by 
rogue states to acquire ballistic missiles, but the increasing 
availability of the technology required to develop these 
weapons. Recent assessments make clear that one factor enabling 
rogue states to acquire ballistic missiles is the continuing 
flow of missile technology from Russia, China, and North Korea.
    Of even greater concern is the fact that traditional 
importers of ballistic missile technology are now becoming 
suppliers. CIA Director Tenet testified just last week that, 
``Iran's existence as a secondary supplier of this technology 
to other countries is the trend that worries me the most.'' 
More suppliers will create greater opportunities for 
proliferation in the future.
    In September of last year, the Intelligence Community 
released a new estimate projecting the likely course of the 
threat, the unclassified summary of which is the subject of 
today's hearing.\1\
---------------------------------------------------------------------------
    \1\ Summary report by the National Intelligence Council entitled 
``Foreign Missile Developments and the Ballistic Missile Threat to the 
United States Through 2015,'' September 1999, appears in the Appendix 
on page 91.
---------------------------------------------------------------------------
    Robert Walpole, the Intelligence Community's National 
Intelligence Officer for Strategic and Nuclear Programs, 
oversaw the formulation of the National Intelligence Estimate, 
and will be our first witness. Mr. Walpole will be followed by 
a panel of two non-governmental witnesses who will provide 
their views on the Estimate. Dr. William Schneider, Jr., who is 
an Adjunct Fellow at the Hudson Institute, previously served as 
Under Secretary of State for Security Assistance, and was a 
member of the Rumsfeld Commission. And Joseph Cirincione, who 
is the Director of the Non-Proliferation Project at the 
Carnegie Endowment for International Peace.
    I would like to emphasize that all discussion in our 
hearing today will be confined to the unclassified summary of 
the National Intelligence Estimate. Also, during my questions 
of the witnesses after they have completed their presentations, 
I may refer to the National Intelligence Estimate, or NIE, but 
in each case in which I do so, I am referring to the 
unclassified summary, even though I may not specifically say 
that, and the answers to the questions should include only 
information in the unclassified summary of the NIE, or National 
Intelligence Estimate.
    With that I am happy to yield to my distinguished colleague 
and friend from Hawaii, Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    Thank you for scheduling this hearing. We know that this is 
one of the most important issues facing American policymakers. 
Every Congress should begin with a hearing on this subject.
    I look forward to hearing the witnesses and so my opening 
statement, gentlemen, will be brief.
    We all fear the terror that may rain down with little 
warning from the skies--missiles launched by rogue nations 
carrying nuclear, biological, or chemical warheads. The job of 
our first witness, Mr. Walpole, from the NIC, and the job of 
all of us in Congress is to understand the threat and not to 
let policy be governed by imagined fears.
    I hope today's hearing will allow us to understand better 
the real terrors that we face. In August 1998, the North 
Koreans launched a three-stage missile that blew up shortly 
after launch.
    We were surprised by that development and the Clinton 
Administration has been seeking to halt North Korean missile 
exports and production ever since. Next month a senior North 
Korean official will be coming to Washington to discuss the 
missile moratorium. I would hope the Subcommittee might have 
the administration brief us on the results of those talks.
    We have begun testing elements of a National Missile 
Defense, NMD, to help safeguard us against some of the threats 
from rogue nations. We are starting to spend billions of 
dollars to guard America against attack by a few missiles. 
However, if other nations had lived up to their commitments 
under the Missile Technology Control Regime (MTCR), and had not 
provided assistance to North Korea, Iran, and other countries' 
missile programs, we wouldn't have to spend this money now. 
Some of the states that have complained the loudest about NMD 
are also the ones who have provided the most assistance to Iran 
and North Korea.
    I also think that it is time that we give serious thought 
to alternatives to the MTCR. It is an arms control regime that 
is not working as it should.
    More and more states are also looking to develop space-
launched vehicle programs, including countries like South Korea 
and India. Their legitimate desire to be in space will mean 
that more and more nations will have the technology to develop 
intercontinental ballistic missiles.
    I am not certain what the answer is, but I think that we 
need to look seriously at finding peaceful outlets for nations 
who want to be involved in space exploration and exploitation. 
I would encourage my colleague, the Chairman of this 
Subcommittee, to hold a hearing on this subject. I think the 
private sector and the arms control community would both be 
interested in participating.
    So let me thank you, Mr. Chairman, again, for scheduling 
this hearing and I look forward to the testimony of Mr. 
Walpole, Mr. Cirincione, and Dr. Schneider.
    Senator Cochran. Thank you very much, Senator.
    Mr. Walpole, you may proceed.

 TESTIMONY OF ROBERT WALPOLE,\1\ NATIONAL INTELLIGENCE OFFICER 
   FOR STRATEGIC AND NUCLEAR PROGRAMS, NATIONAL INTELLIGENCE 
                            COUNCIL

    Mr. Walpole. Thank you, Mr. Chairman, and Members of the 
Subcommittee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walpole appears in the Appendix 
on page 45.
---------------------------------------------------------------------------
    I appreciate the opportunity to be here today to discuss 
the Intelligence Community's recent National Intelligence 
Estimate on the ballistic missile threat, as well as to discuss 
the methodologies that we use to devise that Estimate. You have 
copies of the unclassified NIE, and following my comments, I 
will try to answer questions that you pose without giving any 
further assistance to foreign countries that love to hide stuff 
from us. They don't need any help and sometimes our answers can 
end up helping them. If there are questions that you need 
answers to that we can't do unclassified, we could provide an 
answer classified for the record.
    I support writing unclassified papers for the public from 
the Intelligence Community--I have written several myself. They 
provide an important insight into the Intelligence Community 
and its work. The American public is one of our primary 
customers, but generally only their Congressional 
representatives get to see what it is that we do, so I 
appreciate these opportunities. We need the general populace to 
understand how important intelligence work is for our security 
and safety. That necessity did not end with the Cold War, in 
fact, in some ways it is more important today. Intelligence is 
essential for dealing with hostile intentions of some nations, 
for combating terrorism, weapons proliferations that you have 
discussed, and narcotics trafficking. Significant intelligence 
work goes on every day to make our lives safer and more secure.
    I would like to summarize my statement and if I could I 
would like to submit both the unclassified paper and my written 
statement for the record.\1\
---------------------------------------------------------------------------
    \1\ Summary report by the National Intelligence Council entitled 
``Foreign Missile Developments and the Ballistic Missile Threat to the 
United States Through 2015,'' September 1999, appears in the Appendix 
on page 91.
---------------------------------------------------------------------------
    Senator Cochran. Without objection, they will both be made 
a part of the record.
    Mr. Walpole. OK, thank you.
    Congress has requested that the Intelligence Community do 
annual reports on this ballistic missile threat. The first was 
in March 1998; we did an update on October 1998, because of the 
Taepo Dong launch that you mentioned, and then we did the 
September 1999 Estimate. In that case we worked with the 
Director of Central Intelligence to do an unclassified version 
of the document, and that is what we are meeting on today.
    There are three major differences with how we approached 
this past year's report and previous reports, and I would like 
to walk through those a little bit.
    First, we projected to the year 2015; previous reports have 
only gone to 2110. In essence what we have done is added 5 
years of very important development time frame for these 
countries.
    The second one--and this is probably the most important 
point--we examined when a country could acquire an ICBM as well 
as when they were likely to do so; the ``likely'' is our 
judgment, when they are likely to do so. Earlier intelligence 
reports focused only on what countries would most likely do. 
The Rumsfeld report focused only on what a country could do. We 
felt that an honest thorough analysis was going to need both, 
and I highlight that as probably the most important one. The 
day after this Estimate was released, the unclassified version, 
I read in the newspaper, a quote from an individual from the 
Carnegie Endowment that said that all we had done was looked at 
what the countries could do and didn't tell policymakers what 
the countries were likely to do. I called the individual and 
said, ``We have even got it in italics.'' And he admitted that 
he hadn't read it yet. That is kind of irresponsible. This 
issue is too important to be dealt with lightly like that. That 
is why we went into this saying, ``You know, in order to help 
everybody out--policymakers, people on the Hill--we have got to 
lay out both what the countries could do--technologically, 
economically--and contrast that with what we judge that they 
are likely to do.'' You will see some of those differences as I 
walk through this.
    The third difference is because a country could threaten to 
use ballistic missiles against the United States after only one 
successful test, we are now using the first successful flight 
test as an indicator of initial threat availability. Former 
estimates talked about when the system would be deployed. 
Countries don't have to deploy these systems in the way that we 
were used to during the Cold War--that is a Cold War thinking 
idea. We have got to think in terms of, ``What can the 
countries do?'' They can erect a missile from a test-launch 
stand and use it to strike us. Now it is vulnerable to being 
eliminated through other means, that is absolutely true, but 
the threat is still there, and that is what we are talking 
about, is the threat. They don't need to deploy these systems 
in large numbers, they don't need to have robust test programs, 
they can deploy after only one successful test and we have seen 
that happen. And so that makes it different than the 1995 
Estimate, a lot different.
    Now, I should note that our projections are based largely 
on limited information and engineering judgment. Adding to that 
uncertainty is that many countries hide their programs with 
secrecy and they use deception. A primary example of deception 
in this area is that a country could fly a missile and call it 
a space-launch vehicle. And really the only difference between 
a missile and a space-launch vehicle is the warhead on the end. 
Yes, you have to reprogram the guidance system but that is not 
hard for somebody who knows what they are doing in the missile 
program.
    We also incorporated recommendations of former members of 
the Rumsfeld Commission. And we didn't always agree with them 
and Bill Schneider could probably tell you some of the areas 
where we had disagreements, but we felt, here is a bi-partisan 
group that had all the intelligence available that we had. 
First, we had them read through various drafts and tell us if 
they think we are not addressing some of the questions we ought 
to.
    Second, we had politico-economic experts get involved and 
help us assess what could cause a country like Russia to sell 
an ICBM since we judged that they are unlikely to do so right 
now.
    And third, we had missile contractors come in and help us 
design configurations that these countries could do quickly 
that would be able to deliver weapons to the United States. So 
that instead of being hostage to some of our old thinking about 
how the Russians did it or how we've done it, we got some 
engineers together and said, ``How could you put this 
together?''
    Worldwide missile proliferation has continued to evolve 
over the last 18 months. The missile capabilities themselves 
are advancing, as evidenced by North Korea's Taepo Dong-1 
launch. The number of missiles has increased; medium-and short-
range ballistic missile systems already pose a significant 
threat to U.S. forces, interests, and allies overseas. We have 
seen increased trade and cooperation among countries that have 
been recipients of missile technologies in the past. Finally, 
some countries continue to work toward longer-range systems, 
including ICBMs.
    The missile threats that we will see develop over the next 
15 years will depend heavily on changing relations with these 
foreign countries; political and economic situations, and other 
factors that we cannot predict with confidence, but that we 
have to project anyway. So we decided that we would project 
what the countries could do, what the countries were likely to 
do, independent of significant changes. Now if significant 
changes occur, then our judgments are going to alter. That is 
the value of doing an annual report.
    But just to give you an idea of how difficult projecting 15 
years out is--15 years ago we and the Soviet Union were 
posturing forces opposite each other in Europe during the Cold 
War. You wouldn't have projected 15 years ago where we are 
today.
    Fifteen years ago, Iraq shared common interests with the 
United States. You wouldn't have projected that we would have 
gone to war and then gone back and bombed them again. You 
wouldn't have been accurate with those projections.
    Finally, we couldn't tell you whether some of the countries 
of major concern will continue to exist 15 years from now, or 
whether they will continue to sell missiles and technologies 15 
years from now.
    That said, we are confronted with missile development 
programs that take a long time and we have to give you our 
assessments, but we are doing that.
    Now recognizing those uncertainties, we project that during 
the next 15 years the United States most likely will face ICBM 
threats from Russia, China, and North Korea, probably Iran, and 
possibly from Iraq.
    Now, pause here for a moment because one of the things that 
is of interest to people is that we contrast this with what we 
did in 1995. This is the whole United States; we are not just 
talking about the continental United States and leaving Hawaii 
and Alaska out. At the same time, least anyone think that I am 
trying to take advantage of how close the Aleutian Islands get 
to Russia, that I am wanting to use short-range missiles to 
strike the United States, we are not doing that. To avoid that 
problem, and I will break one of your rules for a moment here, 
in the classified version of the NIE, we provide range-payload 
curves. Now obviously those curves were going to be classified 
so I couldn't put those in the unclassified version. What is 
important about that is that anybody can look at that curve and 
say, ``Oh, well, this means they could develop this pay-load or 
send this payload to this range.'' Now to help the readers of 
those curves, we list cities on the curves, so that you can see 
where these things could reach. So that people can see that I 
am not just talking about Aleutian Islands, here are some of 
the cities that are listed on those charts, these are 
unclassified: Bangor, Maine; Atlanta, Georgia; Miami, San 
Francisco, Seattle, Honolulu, and Anchorage. So we have covered 
all of the United States.
    Now the Russian threat, while it is going to decrease 
substantially, will still be the most robust and lethal. 
China's is going to grow, and the other countries that emerge 
are going to have small forces, constrain to small payloads, be 
less accurate, and less reliable. So the new missile threats 
are going to be far different from what we faced during the 
Cold War. Even so they threaten, but in different plans.
    North Korea's three-stage Taepo Dong-1 heightened 
sensitivities and moved earlier projections of the threat from 
the hypothetical to the real. If flown on a ballistic 
trajectory with an operable third stage, the Taepo Dong-1 could 
deliver a small payload to the United States, albeit with 
significant inaccuracy.
    Second, many countries probably assess that the threat 
alone of longer-range missiles complicate U.S. decisionmaking.
    Third, the probability that a missile with a weapon of mass 
destruction will be used against the United States forces or 
interests is higher today than during most of the Cold War, and 
that will continue to grow. More nations have used them, and in 
fact some have used them against U.S. forces, but not with 
weapons of mass destruction. But they have demonstrated a 
willingness to use those weapons of mass destruction. Now, we 
project that in the coming years, U.S. territories are probably 
more likely to be attacked by weapons of mass destruction from 
non-missile delivery means, most likely from terrorist or non-
state entities than by missiles primarily because those means 
are less costly, more reliable and accurate and they can be 
used without attribution.
    Nevertheless, the missile threat will continue to grow, in 
part because missiles have become important regional weapons in 
numerous countries' arsenals, and missiles provide a level of 
prestige, coercive diplomacy, and deterrence that non-missile 
means do not. Thus, acquiring long-range ballistic missiles 
armed with these weapons probably will enable weaker countries 
to defer, constrain, and harm the United States. The missiles 
need not be deployed in large numbers, they need not be 
accurate or reliable. Their strategic value is derived 
primarily from the threat of their use, not in the near certain 
outcome of such use. Some of these systems are probably 
intended for potential terror weapons, others to perform 
specific military functions, facing the United States with a 
broad spectrum of motivations, development time lines, and 
resulting hostile capabilities.
    The progress toward achieving these longer-range missiles 
has been demonstrated dramatically over the past 18 months. The 
Taepo Dong-1 launch and the Taepo Dong-2 flight-test program 
has been frozen, but the program itself could still continue to 
pace.
    Pakistan and Iran flight-tested their 1,300 kilometer 
range-missiles. India flight-tested a 2,000 kilometer-range 
AGNI II, and China tested its 8,000 kilometer range DF-31 
mobile ICBM.
    Now against this backdrop, let me walk through the 
projections we make in the NIE. And what I would like to do is 
array these by time blocks, blocks of 5 years. The Estimate 
itself walks through it country by country. I think sometimes 
it is helpful to look at it in a little different way.
    So where are we today? The proliferation of medium-range 
ballistic missiles, driven primarily by North Korean's No Dong 
sales has created an immediate, serious, and growing threat to 
U.S. forces, interests, and allies, and has significantly 
altered the strategic balances in the regions. As alarming as 
long-range missile threat is, it should not overshadow the 
immediacy, and seriousness of the threat of these shorter-range 
systems.
    Iran's Shahab-3, for example can reach most of Turkey.
    India and Pakistan have growing arsenals postured against 
each other.
    Alright, now to the long-range missile front. North Korea's 
Taepo Dong-1 could be converted into an ICBM that could deliver 
small payloads to the United States. Most believe that such a 
conversion is unlikely, especially with the much more capable 
Taepo Dong-2 that could be ready for testing at any time. The 
Taepo Dong-2 in the two-stage configuration could deliver a 
several-hundred kilogram payload to Alaska and Hawaii, and a 
lighter payload to the western United States.
    A three-stage Taepo Dong-2 would be capable to delivering a 
several-hundred kilogram payload anywhere in the United States.
    Russia currently has about a thousand strategic ballistic 
missiles with 4,500 warheads. We judge that an unauthorized or 
accidental launch of those missiles is highly unlikely, as long 
as current technical and procedural safeguards remain.
    China's force of about 20 CSS-4 ICBMs can reach targets in 
all of the United States, although Beijing almost certainly 
considers its silos to be vulnerable. China began testing, as I 
mentioned a moment ago, its first mobilized ICBM last year.
    Now let's look at the next 5 years, 2001-2005. North Korea, 
Iran, and Iraq could all test ICBMs of varying capabilities, 
some capable of delivering several-hundred kilogram payloads to 
the United States. Most believe that the Taepo Dong-1 program, 
short of flight testing, is continuing, and that North Korea is 
likely to test the system as a space-launch vehicle, unless it 
continues the freeze. Some believe that Iran is likely to test 
some ICBM capabilities in the next few years, most likely as a 
Taepo Dong-type space-launch vehicle. All believe that Iraq is 
not likely to test an ICBM capable of threatening the United 
States, during this time period. So, there is an example of the 
``could'' and the ``likely.'' They could do it, but we judge 
that they are not likely to do it during that time period.
    Russia will maintain as many missiles and warheads as it 
can but economics are going to drive those numbers below START 
limitations.
    We believe that China will test a longer-range mobilized 
ICBM in the next several years, as well as the JL-2 submarine 
launch ballistic missile. Both of those will be able to target 
the United States. China could use that mobilized ICBM RV to 
make a multiple-RV payload for its CSS-4. They are also 
improving their theater systems, and while I am talking about 
long-range I can't just skip this. It is important to note that 
in the next several years, China is expected to increase 
significantly in the number of short-range ballistic missiles 
deployed opposite Taiwan.
    Let's turn to the next 5 years, 2005-2010. Again, all three 
could test ICBMs, this time all of their ICBMs will be capable 
of delivering several hundred kilogram payloads.
    North Korean capabilities to test and threaten would likely 
remain the same even with the freeze in place. Although non-
flight-testing aspects of the program are likely to continue.
    Some believe Iran is likely to test an ICBM that could 
threaten the United States before 2010, others believe that 
there is no more than even chance of an Iranian test by 2010, 
and a few believe less than an even chance before 2010. So you 
can see some of the struggles we have in coming down to the 
likelihood judgment, there is a lot of difference of view. Many 
factors are involved in that. Nevertheless, all believe that 
Iran is likely to test a space-launch vehicle by 2010 that 
could be converted into an ICBM capable of delivering a 
several-hundred-kilogram payload to the United States.
    Some believe that if Iraq received foreign assistance that 
it would be likely to test an ICBM capable of delivering a 
several-hundred-kilogram payload to the United States.
    Russia's forces will continue to fall and China will 
continue to test its new systems.
    Finally the last 5 years. All three again could test more 
capable ICBMs. Most believe that Iran is likely to test a U.S.-
threatening ICBM during this time period, one that could 
deliver a several-hundred-kilogram payload. A few believe that 
is unlikely. Most believe Iraq's first flight test of a U.S.-
threatening ICBM is still unlikely before 2015; some believe it 
is likely before 2015, as I said with foreign assistance, 
before 2010.
    If Russia ratifies START II, its numbers will be 
considerably reduced. START II bans MIRVed ICBMs so their 
forces would be about half of what they could have without that 
ban.
    By 2015, China will likely have tens of missiles targeted 
against the United States, mostly land- and sea-based mobile 
missiles with smaller nuclear warheads, in part influenced by 
the U.S. technology gained through espionage.
    Foreign assistance continues to have demonstrable effects 
on advances around the world. Russia and China's assistance 
continues to be of significance. North Korea may expand sales, 
and as you noted, Mr. Chairman, we now have second-tier 
proliferators, those that used to be recipients, sharing with 
others. Sales of ICBMs or space-launch vehicles could further 
increase the number of countries or the number of missiles that 
countries could have. North Korea continues to demonstrate a 
willingness to sell. Projecting the likeliness of a Russian or 
Chinese sale is difficult, but we continue to judge it 
unlikely. That said, I note that in evaluating the risks 
involved, the likelihood of a sale has to be weighed against 
the consequences of even one such sale.
    Now I know Congress is interested in our ability to provide 
warning, which depends highly on our collection capabilities 
from country to country. Our warnings about North Korea in the 
past, observed as an important case study. Six years ago we 
warned that North Korea was trying to acquire an ICBM. In 
hindsight, we projected years too soon when North Korea would 
start testing these vehicles. We projected pretty accurately 
when they would get a system that could reach ICBM range, but 
we underestimated the capabilities of the Taepo Dong-1. Now, 
the point here is that we can project fairly easily what 
countries are considering doing and what they might be doing. 
What we can't project with certainty is what the configuration 
on the performance is going to be until flight tested. Recall 
that we weren't aware of the third stage on the Taepo Dong-1 
until after the flight test. Furthermore, countries practice 
denial and deception as I mentioned before--masking things, for 
example, as a space-launch program.
    Nations with a space-launch vehicle could convert it into 
an ICBM relatively quickly with little or no chance of 
detection before the first flight test. They would have to have 
a RV. Now if a country had Russian or Chinese assistance, they 
could develop a RV covertly, not flight-tested, and have some 
confidence that it would work. If they developed an RV 
themselves, and we have been told that there is enough 
information in the open to pull this off, they could have a 
much less degree of confidence in it but we wouldn't be able to 
be confident that it would fail, and that is an important part 
of the problem.
    Now, several other means of delivering weapons of mass 
destruction to the United States have probably been devised, 
some more reliable than ICBMs that we have discussed. The goal 
of the adversary would be to move the weapon closer to the 
United States. These means however, as I noted before, don't 
provide the prestige, coercive diplomacy, or deterrence 
associated with long-range missiles. They could put the 
missiles on a ship and bring them closer to the United States 
and we would not be able to provide much warning of such an 
event.
    Non-missile delivery means are still of significant 
concern. They are less expensive than ICBMs; can be covertly 
deployed and employed; probably would be more reliable, 
accurate, and effective for disseminating biological agents, 
for example, and would avoid missile defenses. Foreign non-
state actors, including some terrorists and extremist groups 
have used, possessed, or are interested in weapons of mass 
destruction. Most of these groups have threatened the United 
States or its interests. We cannot count on obtaining warning 
of all planned terrorist attacks.
    We assess that countries developing ballistic missiles 
would also develop various responses to U.S. theater and 
national defenses. Russia and China have developed numerous 
countermeasures and are probably willing to sell some 
technologies. Many countries such as North Korea, Iran, and 
Iraq probably would rely initially on readily available 
technology--there is a list in the unclassified paper--to 
develop penetration aids and countermeasures and they could do 
so by the time they flight-test their ICBMs.
    Finally, we assess that foreign espionage and other 
collection efforts are likely to increase. I led an interagency 
team last year to examine China's collection and espionage 
efforts against U.S. nuclear information. We have since 
assessed that China, Iran, and others probably are targeting 
U.S. missile information as well.
    That concludes my opening statement and I am prepared to 
take questions.
    Senator Cochran. Thank you Mr. Walpole.
    I am going to ask one question and then yield to the 
Chairman of the Full Committee who has joined us, along with 
Senator Levin who has also joined us. We welcome you to our 
hearing. We will yield to Senator Thompson for questions first.
    But let me ask you this: The administration says that North 
Korea has agreed to refrain from flight testing its longer-
range ballistic missiles during discussions that are taking 
place between our two countries. What effect is that going to 
have on the program that is under way to develop long-range 
missiles? Is this going to stop the program, or if not will it 
impede it in any way?
    Mr. Walpole. It is a good thing anytime that you can 
constrain a country's program, that is a good thing. But, as I 
have indicated in my statement, we don't believe that the 
program has ended. We believe that the non-flight testing 
aspects of the program are continuing.
    Senator Cochran. Senator Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you very much, Mr. Chairman. Thank 
you for your leadership in this area.
    Along those lines, I noticed that it was reported today in 
the Washington Times that North Korea sold twelve medium-range 
ballistic missile engines to Iran. You may have discussed this 
before I got here but they could be used as boosters for long-
range Iranian missiles. The same article reported that in the 
Pentagon's Estimate, North Korea was continuing with 
preparations for a test of its newest and longest range 
missile, the Taepo Dong-2. How do these reports impact your 
assessment?
    Mr. Walpole. Let me first say that I hate leaks like this. 
The sad part is, the more leaks like this that continue, the 
harder my job is going to be, and we are not going to be able 
to give our Estimates that have any meaning because we won't be 
able to collect anything. So, I think that the leak is 
abominable.
    Second, since it is a leak, I cannot talk about the 
intelligence aspects of it. What I can tell you about engines 
like that in general, is that those engines are critical. They 
are critical to the Taepo Dong program, and they would be 
critical to the Shahab-3 program and any extensions of the 
Shahab-3 program.
    Senator Thompson. We have a hard time even ourselves 
getting information on some of these things. I understand your 
concern about the leaks, however there is a growing concern 
that the American people and perhaps even Congress doesn't 
fully comprehend what is going on out there. We continue to 
read about underground facilities; nobody seems to know what is 
going on in North Korea and stories like this, and at the same 
time, the administration is waiving U.S. economic embargo 
provisions.
    Let me ask you this. This follows up the assessment of the 
Rumsfeld Commission. In a broad generalization, in what 
material ways do you agree or disagree with the findings of the 
Rumsfeld Commission?
    Mr. Walpole. Well, as I indicated in my opening statement, 
the Rumsfeld Commission laid out what the countries could do. 
So, our ``likely'' judgments, it would be hard to compare or 
contrast them with the Commission's report because they didn't 
have the ``likely'' judgments. On the ``could'' judgments, they 
said a country could do it in 5 years. We have countries doing 
it sooner than that, so in that sense we are in line or maybe 
even quicker than that, on the ``could'' side of the equation.
    Senator Thompson. Well, it seems like every major 
assessment seems to bring it closer. Your 1995 assessment, of 
course was much less concerned about the imminence of it, I 
would say than this. Rumsfeld came a good way and now you are 
going a little further in that respect.
    Mr. Walpole. Well, the 1995 Estimate only looked at 
``likely.'' It didn't look at the ``coulds.'' The problem of 
comparing the 1995 Estimate to the Rumsfeld report is that it 
was an apples and oranges thing. The 1995----
    Senator Thompson. You changed your standard of analysis 
somewhat?
    Mr. Walpole. Well, we added a standard.
    Senator Thompson. Some people, of course, have been 
critical of that and they talk about now, ``this could happen, 
and that could happen.'' I think absolutely we need the 
assessment like you have given us. Clearly it is an inexact 
science.
    Critics on the other hand say that the Estimate is 
overblown because these nations could become friendly, or they 
could want to have this nuclear option in their own area or----
    Mr. Walpole. That would be great.
    Senator Thompson [continuing]. Perhaps it is not as 
imminent, or treaties could solve the problem, and all that. So 
everybody is dealing, to a certain extent, in kind of a 
nebulous area. Most of the critics, I think, are opposed to a 
missile defense system and this is necessary for them to get 
where they need to get. But, I think in light of the fact that 
the Rumsfeld Commission was a unique Commission--I haven't been 
up here that long but you had all these people come together, 
all different levels of relevant expertise from different 
vantage points, not part of any political group and so forth 
and all unanimously coming to the same conclusion.
    One of those conclusions is that we really have some real 
blind spots in terms of being able to tell what is going on and 
yet every assessment we get: 1995, Rumsfeld Commission, 2000 is 
a greater and greater concern, and of course you acknowledge 
from the things that we absolutely know such as the Taepo Dong-
2 shot across Japan that we were surprised. When objective 
factors come out it seems like it is always on the side of it 
being a little worse perhaps than what we thought.
    Mr. Walpole. Yes, we weren't surprised by the test----
    Senator Thompson. Third stage.
    Mr. Walpole [continuing]. And I sure would have liked to 
have been the analyst that said earlier, before that launch, 
that they could put a third stage on that vehicle and extend 
its range. That would have been neat. That is why we changed 
our methodology. We said we have got to think outside the box. 
We have got to lay out some of these excursions, what could 
happen and then step back and evaluate the likelihood of those 
occurring.
    Senator Thompson. Well, you are going to be criticized 
because you are not absolutely promising things that are going 
to occur, but that to me----
    Mr. Walpole. I can live with that.
    Senator Thompson [continuing]. That is fallacious criticism 
and I think you have done exactly the right thing.
    Let me ask you in the remaining time that I have about the 
sources of some of these problems and that has to do with 
foreign assistance.
    Our CIA, it seems, comes up every year and says that China 
is still the world's greatest proliferators and Russia 
apparently is not that far behind. You mentioned China and 
Russia with regard to Iran, North Korea, various items--missile 
components, technology knowhow, all of that. Could you give us 
a fairly concise summary for each of those two countries in 
terms of what--unclassified, of course--they are doing with 
regard to assistance to the so-called rogue nations?
    Mr. Walpole. And that is the problem, I can't give it 
unclassified. The best I can say is that----
    Senator Thompson. Well, you said some things in your 
report.
    Mr. Walpole. Yes, and that was pushing it about as far as I 
could go. I said both the assistance from Russia and the 
assistance from China is significant in the proliferation 
realm.
    Senator Thompson. And that assistance continues?
    Mr. Walpole. Yes.
    Senator Thompson. And it has to do--let me see how far I 
can go. Does that have to do with both missile components and 
missile technology?
    Mr. Walpole. It is a mix.
    Senator Thompson. All right, I think that is as far as I 
will push it.
    Mr. Walpole. OK, thanks.
    Senator Thompson. Thank you very much.
    Senator Cochran. Thank you Senator Thompson.
    Senator Akaka, do you want to yield to your senior 
colleague? [Laughter.]
    Senator Akaka. I am here to stay.
    Senator Cochran. I wasn't suggesting that you do so.
    Senator Akaka. Thanks.
    First, I want to say that you paint a disturbing picture of 
more and more countries gaining advanced missile technology. Is 
it your sense that as other countries develop and improve their 
own ICBM capabilities, they will also develop and improve 
counter-measures to missile defense systems? Could you 
describe, when you do reply, some of the counter-measures which 
countries such as China, Russia, and Iran might take in 
response to our national theater missile defense program?
    Mr. Walpole. Yes, in the Estimate we laid out what a 
country could do on the counter-measure side, we didn't make a 
likelihood judgment. The reason we didn't there is that 
counter-measures are supposed to be just that, measures to 
counter something else. So until an NMD architecture is laid 
out, they don't need to commit to one type of counter-measure 
or another. So we laid out those counter-measures that they 
could draw from initially and I will cover that list here: 
Separating re-entry vehicles, spin stabilized RVs, RV 
reorientation, radar-absorbing material, booster fragmentation, 
low-powered jammers, chafe, simple or balloon decoys. These 
were all readily available--that they could have available--our 
missile contractors tell us--by the time they flight test their 
missiles. So they could draw from those.
    Now, how sophisticated any of those measures would be, 
would depend upon how much effort they put into it. One of the 
reasons we are reporting on it as early as we are is because 
you can then have counter-counter-measures and our military 
needs to be aware of all of those as well. So this ends up 
being an arms race within an arms race, that you have to deal 
with.
    Senator Akaka. Let me ask another question. If the 
Comprehensive Test Ban Treaty (CTBT) was to come into force, 
would this constrain the size and design of future Chinese 
nuclear weapons? Do you believe that CTBT ratification would 
limit weapons development?
    Mr. Walpole. When we did the damage assessments on the 
China espionage, we did an unclassified key finding for that. 
And I was trying to turn to that, I can't find it readily 
enough, but I will just try to remember from memory.
    We said in that, China's effort is progressing far enough 
along that they can do a lot for a number of years with their 
nuclear developments. The implication would be that they don't 
need to do a lot of testing. So, the impact would be further 
down the road than you might think, from your question there. 
It would constrain others but some of these other countries may 
not be interested in testing a nuclear device. They may be 
satisfied in just having one that will work based on the 
physics and not worrying about the test.
    But anytime you put countermeasures on the front of a 
missile, you are reducing the payload capability of that 
missile. You are going to exchange payload for countermeasure 
and vice versa.
    So that in the end, of course it is going to have an 
effect, but how much of an effect is going to depend on how 
dependent they would be on testing in the near-term and the 
long-term.
    Senator Akaka. Mr. Chairman, I have other questions but I 
will wait.
    Senator Cochran. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you Mr. Chairman.
    Mr. Walpole, let me add my welcome and my thanks for your 
report. It is, as always, enlightening.
    The part that is focused on often is the missile threat and 
it is important that we understand that threat, where it is 
coming from, who supplied the technology--it hasn't just come 
from China and Russia?
    Mr. Walpole. Oh, if you push back far enough, your 
statement will be true.
    Senator Levin. In addition to giving us your assessment on 
the missile threat from either terrorist groups or rogue 
nations, your report also talks about non-missile delivery of 
weapons of mass destruction. It seems to me that part of your 
report is really quite stunning and I want to spend a few 
minutes on that as well because I think the part about the 
missile delivery of weapons of mass destruction will get its 
proper attention but what may be overlooked, and shouldn't be 
overlooked, are the portions of your report that tell us about 
the non-missile delivery of weapons of mass destruction. I want 
to just read a portion, and ask you to comment on it.
    In your testimony you indicate on page 3, ``We project that 
in the coming years, U.S. territory is probably more likely to 
be attacked with weapons of mass destruction from non-missile 
delivery means, most likely from non-state entities, than by 
missiles.''
    And then you give four reasons why that is true, and on 
page 15 of your report you go into some detail about those 
reasons: Non-missile means of delivery, which are the more 
likely way in which a weapon of mass destruction would be 
delivered, include--let me see if I can follow this--
``trucks.'' Is that correct?
    Mr. Walpole. Yes.
    Senator Levin. ``Ships?''
    Mr. Walpole. Yes.
    Senator Levin. ``Airplanes?''
    Mr. Walpole. Yes.
    Senator Levin. Possibly, you indicate, cruise missiles.
    Mr. Walpole. Yes.
    Senator Levin. All right.
    Now, reason one that it is more likely that one of those 
non-missile means would be delivering the weapon is that the 
non-missile delivery option--you say on page 15--is ``less 
expensive than developing and producing ICBMs.'' Is that 
correct?
    Mr. Walpole. Yes.
    Senator Levin. Second, ``Can be covertly developed and 
employed.'' Is that correct?
    Mr. Walpole. Yes.
    Senator Levin. In other words, in your words, ``The source 
of the weapon could be masked in an attempt to evade 
retaliation.''
    Third, you indicate, ``probably would be more reliable than 
ICBMs that have not completed rigorous testing and validation 
programs.'' Is that correct?
    Mr. Walpole. That is correct.
    Senator Levin. Fourth, you say ``Probably would be more 
accurate than emerging ICBMs over the next 15 years''--that is 
your qualifier--but the accuracy comment relates to over the 
next 15 years. Is that accurate?
    Mr. Walpole. That is correct.
    Senator Levin. Next, you say that the non-missile means of 
delivery is more probable because--and this is one that I want 
to ask you about--``Probably would be more effective for 
disseminating biological warfare agents than a ballistic 
missile.'' And that is a fifth reason why it is more likely 
that a truck, a ship, or a plane would be used for delivery 
than a ballistic missile, or at least one of those three would 
be the delivery means rather than a ballistic missile.
    And I would like to ask you, why would a non-missile 
probably be more effective for disseminating biological warfare 
agents than a ballistic missile?
    Mr. Walpole. If a highly advanced country like us, or 
Russia, were to develop a ballistic missile with a biological--
and of course that would violate treaties--but, a biological 
dispersion mechanism, we'd be able to pull it off and it would 
be very effective. That is because we do rigorous testing, long 
flight test programs; we test it every which way.
    What we have seen happening here is that these countries 
aren't testing a lot, and so our judgment for ``probably would 
be more effective'' is that if they are doing something on the 
ground, they can do the testing without doing flight-testing. 
They can put it in the back of a pickup, they can spread it, 
they can test the aerosolization and make sure that it is going 
to work. They would have high confidence that the biological 
agent either being sprayed or being put in a water supply is 
going to work that way, where they wouldn't be so sure the 
other way. That is what was really behind that.
    Senator Levin. So in your assessment, you give five reasons 
why a non-missile means of delivery would probably be more 
likely to be used than a missile-means of delivery. And then 
your sixth reason, it seems to me, is kind of the bottom line, 
is that all of those means of delivery would avoid missile 
defenses.
    In other words, a missile defense does not defend us 
against any of those non-missile-means of delivery. Is that 
correct? The truck, the ship, the plane?
    Mr. Walpole. That is correct. Certain types of cruise 
missiles would probably be captured in some of the instances.
    Senator Levin. But except for that, the more likely means 
of delivery would not be defended against by a missile defense?
    Mr. Walpole. Correct.
    Senator Levin. All right.
    Now, I don't think there has been enough attention paid to 
the entire mix. I think it is important that we see what all 
the threats are, the range of threats, including missiles, but 
that we also understand the most likely threats, what would 
defend against them and where our resources are being placed, 
as well as what the impact of those means of delivery are 
because that is also important. It is not just that a truck is 
more likely than a missile but what would be the impact if it 
were a missile, rather than a truck--that also has to be put 
into the calculus. But there hasn't been nearly enough 
attention paid to that portion of what you are telling us, it 
seems to me, as to the missile part of what your report focused 
on.
    Mr. Walpole. Well, that is why I stated, especially in the 
statement with, ``We think that we are more likely to have U.S. 
forces and interests struck with a missile with a weapon of 
mass destruction, than at most points during the Cold War.''
    But, then at the same time I am saying that, to say but as 
far as U.S. territories in the coming years, there is other 
ways to get us that are probably more likely, at this point.
    Senator Levin. I want to go back to the Cold War, because 
at some point during the Cold War we still have a Cold War 
going on with North Korea, it still is a confrontation, it is 
not a----
    Mr. Walpole. That is probably an accurate terminology for 
it.
    Senator Levin. North Korea had missiles, short-range or 
medium-range missiles, against which we had no defense for many 
years. Is that correct?
    In other words, we put in Patriot missiles a few years ago 
to defend against North Korean missiles, but until then there 
was no defense against those missiles.
    Mr. Walpole. That is correct.
    Senator Levin. Do you know what that length of time was, 
off hand?
    Mr. Walpole. I don't know the length.
    Senator Levin. But is it fair to say that there was a 
period of time before we got the Patriot missiles into South 
Korea that there was no missile defense against their medium or 
short range missiles?
    Mr. Walpole. I think that is accurate.
    Senator Levin. Now, during that period of time, North Korea 
did not use those missiles, although there was no defense 
against them.
    What was the assessment of the Intelligence Community 
during that period of time, as to the likelihood of the use of 
the missiles by North Korea, even though it faced no missile 
defense? Can you remember what your assessment was?
    Mr. Walpole. I can't. That would be interesting to go back 
and look at, and the same would be true of artillery.
    Senator Levin. Would you do that for us?
    Thank you, Mr. Chairman.
    Senator Cochran. Mr. Walpole, I was asking you a few 
questions about North Korea and the fact that during these 
discussions they have refrained from flight-testing their 
ballistic missiles, and you indicated that this doesn't mean 
that they have stopped the development of the long-range 
missile program. What kind of activity, specifically, can you 
tell us could be conducted, or do you expect would be likely to 
be conducted, by North Korea during this period of time when 
they are not actually flight-testing their missiles?
    Mr. Walpole. Well, there are a lot of aspects of a missile 
program that are not flight testing: Any of the production, any 
of the ground testing, whether you are doing ground testing of 
engines, whether you are doing testing of propellent or fuel 
tanks, whether you are doing electronic checkout of various 
components, telemetry systems, I mean you can have all of that 
kind of activity and not have it be part of the flight-testing.
    Senator Cochran. All right, do you expect that it is going 
on at this time?
    Mr. Walpole. Our judgment is that they are continuing the 
program. Now, I was purposely using a generic list to talk 
about so I didn't talk specifically about anything we have or 
have not seen.
    Senator Cochran. How would you characterize the status of 
the Taepo Dong-2 program in North Korea?
    Mr. Walpole. That the program is still alive.
    Senator Cochran. One witness who testified before our 
Subcommittee was John Pike, who may be the Federation of 
American Scientists, or at least he is one of them, if he is 
not all of them. But he said when he was testifying before the 
Subcommittee, ``It is quite evident that the Taepo Dong launch 
facility was not intended to support, in many respects is 
incapable of supporting the extensive test program that would 
be needed to fully develop a reliable missile system.''
    Do you agree with his conclusion?
    Mr. Walpole. Let me rephrase his conclusion and then I 
will--``That it certainly wouldn't support a robust United 
States or former Soviet flight test program.''
    Then I would agree with it.
    But where I would disagree with him is, it supported a 
nearly-successful space launch. It supported a nearly 
successful test of a system that had flown on a ballistic 
missile trajectory that could deliver a payload to the United 
States. So, we have to get out of this mind set that everybody 
has to do it our way.
    Senator Cochran. Does North Korea need an extensive test 
program to develop its Taepo Dong-2 ballistic missile?
    Mr. Walpole. An extensive one, no.
    Senator Cochran. Is a long and extensive test program 
characteristic of previous North Korean practices?
    Mr. Walpole. No.
    Senator Cochran. Does North Korea need to flight-test its 
Taepo Dong-2 missile before deploying it?
    Mr. Walpole. That is an easy answer. The easy answer is no. 
Anybody can deploy whatever they want. The question is going to 
be, what kind of confidence would they have in a system they 
haven't flown?
    Senator Cochran. Well, should we conclude from this that 
North Korea's level of confidence in its ballistic missiles is 
different from the United States?
    Mr. Walpole. Oh, I would conclude that. Their confidence is 
different, but their need for confidence would probably be 
different as well.
    Senator Cochran. Why is that? Could you explain why and in 
what ways the required confidence levels differ between the 
United States and countries like North Korea?
    Mr. Walpole. Yes, our missiles were designed to be counter-
force missiles. We were going after silos. If you didn't get 
the silo, the missile coming back at you was going to have 
multiple nuclear warheads on it, so you wanted to eliminate 
that silo and make sure that the missile couldn't be used. That 
required highly reliable, highly accurate systems.
    If you are doing a counter value, that is going after 
populations, it doesn't require that kind of reliability, that 
kind of accuracy. Obviously North Korea wouldn't want to have a 
dud and say, ``We're going to launch at you'' and then fire 
something in that duds.
    We'd love it to be a dud.
    But there is a big difference in what they are going after, 
what they would want to threaten and what we would want to 
threaten. Remembering, of course that if North Korea launched, 
they would probably view it as one of their last acts.
    Senator Cochran. That leads me to this next question which 
is that some are suggesting that the capacity to send a long-
range missile to the United States is the reason why some rogue 
states may want to possess an effective ballistic missile 
system, but the NIE says in many ways that such weapons are not 
envisioned at the outset as operational weapons of war but 
primarily as strategic weapons of deterrence and coercive 
diplomacy.
    Is it your view that this is of significant utility, for 
rogue states to merely possess intercontinental ballistic 
missiles, even if they are not used?
    Mr. Walpole. The short answer is yes. I think that they 
view it as significant. If nothing else, as a bargaining chip. 
And I guess the case that I would make is to look at what North 
Korea has been able to accomplish just with having had a failed 
space-launch attempt, and an untested Taepo Dong-2.
    I think it falls into the category of coercive diplomacy. 
So, yes, I think they see this as valuable.
    Senator Cochran. The term ``emergency operational 
capability'' has been used before in briefings of our 
Subcommittee and also in the semi-annual report to Congress on 
proliferation. What is meant by the phrase, ``emergency 
operational capability,'' and how does it differ from the term 
``deployment'' as it is used in connection with ballistic 
missile systems?
    Mr. Walpole. I didn't like the term, ``emergency 
operational capability'' and that is why we used, in our 
report, ``initial threat availability.''
    ``Emergency'' conjures in my mind fire trucks and rescue 
squad and stuff.
    It is just my bias, but what ``emergency operational 
capability'' means is that before deployment, before having a 
robust test program where something is fully integrated into 
the doctrine and military of a country, they could launch that 
for military purposes and have some operational value. I don't 
know how ``emergency'' fits into that unless it is because 
someone else is attacking you.
    That is why we thought it was better characterized by, 
``initial threat availability.'' They can threaten to use this 
as soon as the thing can fly.
    Now how that differs from deployment--and I kind of defined 
that a moment ago--fully integrated into the doctrine and the 
military forces of the country in question. That is what we 
mean by deployment.
    Senator Cochran. How many rogue states do you think will be 
likely to have that kind of capability by the year 2005?
    Mr. Walpole. The initial threat availability?
    Senator Cochran. Right. It used to be the ``emergency 
operational capability'' but now you call it the ``initial 
threat availability.''
    Mr. Walpole. Well, you said likely. We are talking 
``likely.''
    Senator Cochran. Yes, I said likely.
    Mr. Walpole. On the ``likely'' side, what the Intelligence 
Community obviously has said by 2005, is North Korea. China and 
Russia, of course, but not North Korea. Most agencies are 
saying unlikely for Iran and unlikely for Iraq.
     As you remember, there was an earlier part of my statement 
about ``Some believe that Iran could try to test a Taepo Dong-1 
copy in the next few years.'' I am one of those some. And so, 
to answer your question, I think Iran would fall into that 
category.
    Senator Cochran. Senator Thompson, do you have any other 
questions?
    Senator Thompson. Just a few, Mr. Chairman.
    On the issue of what is the major threat, the most imminent 
threat, clearly we should be preparing for the full range of 
threats that this new world is bringing us, but I know last 
year the President requested, and I think got, $10 billion to 
deal with terrorist threats with regard to weapons of mass 
destruction. So with regard to those truck bombs, it is not 
exactly like we are not doing anything.
    So I suggest that we compare that with what we are doing in 
terms of the other threat, whether it is a little smaller 
threat, or a greater threat, or whatever.
    I was thinking about, clearly, it is easier in some 
respects, I guess, to carry out an act of domestic terrorism. 
On the other hand, there are some factors mitigating toward 
missiles I would say, but as to an alterative for a rogue 
nation, as opposed to terrorism, and one has been touched on 
and that has to do with prestige.
    Why is North Korea--a country whose people are literally 
starving to death--putting the resources that they are into 
their missile program, if not for the factors that you have 
been talking about, prestige and coercive ability, that 
missiles would bring? Is that a correct assessment?
    Mr. Walpole. That is a good assessment.
    Senator Thompson. Also, what about the regional threat that 
missiles will bring? What about our troop vulnerability, and 
our allies? I mean, that has nothing to do with domestic 
terrorism as far as we are concerned but it certainly would 
bring us into the mix, big time. Just as much as if we were 
attacked ourselves.
    Mr. Walpole. That is here and now.
    Senator Thompson. That is here and now? What do you mean by 
that?
    Mr. Walpole. I mean the medium-range, short-range ballistic 
missile threat to our troops and our interests and allies 
overseas is already there. That is not waiting for flight-
testing or anything else.
    The Shahab-3 can already reach three-fourths of the way 
into Turkey. That is NATO.
    Senator Thompson. Well, I was going to ask you about Europe 
in general. Could you elaborate on that a bit, in terms of 
vulnerability of our allies, with regard to this?
    Mr. Walpole. Well, it is basically Turkey at this point, 
because you would have to get a few-thousand kilometer missile 
from Iran, to be able to capture, as I recall looking at the 
range the other day, it had to be about 2,500 for Iran to reach 
Italy and almost 4,000 to reach France. So you would have to 
get some longer range systems to get out there. They are 
coming. Those systems are coming down the road.
    Senator Thompson. Are we sharing our assessments with our 
NATO allies?
    Mr. Walpole. Absolutely. I have personally been to the UK 
to brief, to France to brief. I have been to Geneva and briefed 
the Russians on where we saw this. My deputy has been to 
Denmark and in fact, he is meeting with the Danes today to go 
over it again. I mean, we have spent time with the allies.
    There are so many versions of this NIE out at this point. 
We have a secret releaseable NATO version and a secret 
releaseable allies version. It has got obviously more 
information than the unclassified version to get out to people. 
We are trying to get this message out.
    Senator Thompson. I don't want to discourage you but some 
of us just came back from the conference over in Munich and the 
Russian representative said that our concern with nuclear 
proliferation was fantasy.
    Mr. Walpole. He said that to me too.
    Senator Thompson. He has got more work to do.
    Mr. Walpole. They said that to me and that is when I coined 
the phrase that, I am sorry, it was a General that said that, I 
said, sorry General, but the Taepo Dong-1 launch moved us from 
hypothetical or fantasy to real. It flew. We know what it can 
deliver. It is no longer just a hypothetical issue.
    Senator Thompson. After we received a round of criticism, I 
responded that I thought it was ironic that the countries that 
were complaining so much about our proposed missile defense 
system were the main causes of our need for one, that is China 
and Russia's proliferation. The Chinese responded that that was 
unfounded. So that settled that matter.
    Mr. Walpole. They know better than----
    Senator Thompson. You mentioned, too, that part of the 
Chinese development of their own capabilities will be based 
upon U.S. technology and some of that was acquired through 
espionage, is that correct?
    Mr. Walpole. Yes.
    Senator Thompson. How does your assessment comport with the 
Cox Report's conclusions along those lines?
    Mr. Walpole. In the general sense it comported all right. 
The Cox Report used a little different definition of espionage. 
We determined that, and I can't say one is right or wrong, but 
we determined that if the information was available through 
some other means, even though it was classified but had been 
available because of a leak or something else, we wouldn't 
throw that into the espionage pot. We only called espionage 
what we knew couldn't have been attained through any other 
means, because then we could have proved that espionage took 
place.
    The Cox Report said no, if it is classified we are going to 
count it as espionage. I can't prove which is right because you 
would have to get to the Chinese people that collected it to 
sort it out.
    Senator Thompson. Even by your definition you concluded 
that some of their advancement was based on espionage--
obtaining of our technology.
    Mr. Walpole. Yes, we concluded that they did conduct 
espionage, influenced their program; their systems would look 
more like ours even though they will be different because they 
have deficiencies in their own requirements.
    Senator Thompson. Thank you very much.
    Senator Cochran. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I would like to hear more about new missile states and the 
threat they are to us. I would ask you describe those threats. 
For instance, the Iranians as you testified, have been working 
on medium range missiles. Do the Iranians now have the ability 
to develop, on their own, engines for their medium-range 
missiles?
    Mr. Walpole. You know that is an interesting question 
because unlike Pakistan, who basically got the No Dong and 
called it the Ghauri, Iran got the No Dong and wanted to work 
with it with Russian assistance. They want to have more hands-
on involvement.
    I don't know how to answer the question unclassified, other 
than that they have certainly gotten Russian assistance to help 
with making that conversion. That said, overnight they could 
change their mind and follow the Pakistan round, just buy them 
and be done with it.
    Senator Akaka. And what have you been alluding to if they 
don't have the ability now, do you have an estimate as to when 
they might be capable of developing one?
    Mr. Walpole. Well, I don't think there is any question that 
Iran has the capability of developing engines.
    Senator Akaka. Can they do it without----
    Mr. Walpole. Yes, I am sorry, I should have answered that 
part.
    Iran certainly has the ability to develop engines. Whether 
they would be able to develop exactly the same as a No Dong 
engine or something else and then advance it from that would be 
what their program was set up to do.
    Senator Akaka. Do you think they can develop it without 
outside support?
    Mr. Walpole. Oh, they could. It would take them longer but 
they could.
    Senator Akaka. How would you describe the contributions 
made by Russia, China, and North Korea to the Iranian missile 
program?
    Mr. Walpole. That is what Senator Thompson tried. I have 
gone about as far as I can in an open session on that one. 
Sorry.
    If I start to tell you what we know, then they'll figure 
out how we figured it out and we won't pick it up next time.
    Senator Akaka. Well, if you can answer this, in your 
opinion who has provided the most help to Iran of those 
countries?
    Mr. Walpole. I don't know that I've ever thought about 
counting it up that way because they have both helped in 
different ways.
    Senator Akaka. Let me ask you about North Korea's missile 
program. The North Koreans tested a three-stage missile, Taepo 
Dong-1, as you testified, how large a warhead could it carry 
over the distance necessary to hit the United States? You 
mentioned a ``light warhead,'' and my question on that is what 
is a ``light warhead'' and how much damage could it cause?
    Mr. Walpole. I can't give the numbers unclassified, but 
when I am using terms like light and small, we are talking more 
in terms of a biological or a chemical-sized warhead. When I 
use the phrase several hundred kilograms that's when I think 
you can figure, oh well somebody could make a nuclear weapon at 
the several hundred-kilometer range, and that is how we 
separated it. So in answer to your question, the Taepo Dong-1 
could deliver a small, that is biological or a chemical-sized 
warhead to parts of the United States.
    Senator Akaka. In your testimony you seemed to indicate 
that it is unlikely that the North Koreans would place a weapon 
on a three-stage missile and that they would more likely put it 
on the Taepo Dong-2. First, why do you draw that conclusion 
and, since the Taepo Dong-2 has not been tested, how can you be 
certain that it is a much more capable missile, as you say in 
your testimony?
    Mr. Walpole. Trust us. [Laughter.]
    No, we have sufficient intelligence on both missiles to 
know that one is a whole lot more capable than the other. I 
think you've seen line drawings in the open on the two and the 
Taepo Dong-2 is a lot larger missile, in fact, the Taepo Dong-
2's second stage is the first stage of the Taepo Dong-1--just 
to give you an idea of how much bigger it is.
    We feel--and I can't go into the intelligence behind it--
but we feel that they basically moved from the Taepo Dong-1 to 
the Taepo Dong-2 effort, and that is why our judgment is 
unlikely to weaponize the Taepo Dong-1 with the Taepo Dong-2 
around the corner.
    Now, if you were to ask me the question, ``Well, what if 
they were to freeze flight-testing from now on, would they then 
be forced to use the Taepo Dong-1?''
    Yes, but remember, it failed, so they have a tested, but 
not a successful version or an untested version, and they have 
no idea how successful it would be, or another missile. And 
which one are they going to put their confidence in, 
particularly since one would have range to reach further than 
the other. We can't get into their minds to sort that out.
    Senator Akaka. There might be a possibility, if tested it 
might fail.
    Mr. Walpole. Yes.
    Senator Akaka. Do you have an opinion as to which country, 
historically has been the greatest proliferator, I mean which 
country has provided the most assistance on missiles to the 
greatest number of other states?
    Mr. Walpole. A few years ago, that would have been easy; it 
would have been Russia. But North Korea has been doing so much 
anymore that it is a hard call.
    The problem is, do you calculate that based on the amount 
of hardware, would you calculate that on the amount of know-
how, or would you calculate that based on the impact it has had 
on countries' programs? Now I would rather do it on the latter. 
But that is one I haven't calculated. I have a much better idea 
of these two, but they could be artificial answers. I think the 
impact on the program has got to be the critical answer and I 
don't know the answer to that one.
    Senator Akaka. Senator Levin asked the question but I want 
to ask it again. We have a situation in which a lot of states 
have developed short-range missiles for use in war time. There 
are a few states that are developing weapons of mass 
destruction. Pretty much those same states, if left unchecked, 
would probably develop long-range missiles that could hit the 
United States. If they do develop these weapons and missiles, 
they will probably do so, less for offensive military reasons 
and more for diplomatic prestige or deter attack. If these 
states wanted to attack the United States, they might more 
likely use something like a cruise missile from an offshore 
ship or submarine or a ship container in an ICBM to deliver 
their weapons. Would you agree with that statement or not?
    Mr. Walpole. Well, it is pretty close to what we had said 
in the Estimate. The struggle when you start getting down to 
``use,'' we have been talking about missile threats, now if we 
start to come down to use, it depends a lot on the conditions. 
If the country were going to use it because they knew they were 
going down and it was just, ``We're going to get back at you 
before we go,'' then they don't have time to use one of these 
terrorist techniques, then they would launch a missile because 
they are going down anyway.
    If they were trying to damage the United States without 
being attributable, then a missile is not the way they are 
going to want to do it because we are going to figure out where 
it came from. They would want to use some other means to that 
end. So the whole ``use'' question comes down to, it is very 
scenario-dependent. And when it starts coming down to U.S. 
population at risk, those scenarios need to be looked at 
closely.
    Senator Akaka. Thank you very much for your response.
    Thank you, Mr. Chairman.
    Senator Cochran. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    In terms of the diplomatic pressure or the prestige or the 
intimidation factor, North Korea has had our troops at risk for 
decades, have they not, through their medium-range missile?
    Mr. Walpole. Artillery?
    Senator Levin. And artillery.
    Just talking missiles for a moment. Their medium-range----
    Mr. Walpole. There are SCUDS, short-range missiles.
    Senator Levin. And short-range missiles. Medium and short-
range missiles have had our troops at risk for decades.
    Mr. Walpole. Well, not medium for decades; short.
    Senator Levin. OK.
    Mr. Walpole. I honestly don't remember when the SCUD was 
first introduced.
    Senator Levin. OK.
    Mr. Walpole. But it has been many years.
    Senator Levin. It has been a long time that our troops have 
been at risk from North Korean missiles.
    Mr. Walpole. Yes.
    Senator Levin. Our means of defense against those missiles 
for a long period of time, was it not, was deterrence, the 
threat of retaliation against them if they would use it? Before 
we had deployed a Patriot, was that not the only defense we had 
against an incoming missile, deterrence and retaliation?
    Mr. Walpole. Well, we didn't have a defense but deterrence, 
you can argue would have been a play, yes.
    Senator  Levin. All right.
    Did the presence of those missiles achieve any diplomatic 
gains for North Korea? In other words, our troops at risk just 
the way our population will someday be at risk against the 
North Korean weapon of mass destruction, be it a truck bomb or 
be it a long-range missile. Our population--well the troops are 
part of our population----
    Mr. Walpole. They are part of our population but since our 
troops--and that is why I threw artillery into the equation--
since we have sent troops over there for decades knowing that 
they were at risk to artillery. When the SCUDS were added to 
the deck, and you would have to ask the military how they 
calculated this, but from my calculation, when the SCUDS were 
added, it was just an added threat, we knew we were putting our 
troops in harms way anytime they went to North Korea or South 
Korea or anywhere near the DMZ. That's a different equation 
than our population that didn't join the military and didn't 
get sent near the DMZ.
    Senator Levin. Not in my book. I don't have the slightest 
doubt that if North Korea attacked our troops with artillery or 
missiles, that our response would be massive, direct, 
immediate. I don't have the slightest doubt, and I hope North 
Korea doesn't have the slightest doubt, and I don't think there 
would be any difference. I think that would be considered an 
attack on us to the same extent as if they were----
    Mr. Walpole. Oh, that's true but I thought you were asking 
in terms of coercive diplomacy against us. I think when you are 
holding a population in our homeland at risk, there is a 
different value relative to constraining U.S. options elsewhere 
than simply in an area where you are already still a part of 
the Cold War, that was the struggle I was having was how to 
equate coercive diplomacy in the two scenarios.
    Senator Levin. No. Do you believe that North Korea is 
likely to deploy or use a ballistic missile that has never been 
flight tested?
    Mr. Walpole. I know they can. Anybody can deploy----
    Senator Levin. My question is likelihood. Are they likely 
to?
    Mr. Walpole. Deploy starts to seem really unlikely. Use, as 
I said, you can start walking down these scenarios, if you've 
got it available, you might try it.
    Senator Levin. What is the scenario in which the--you are 
talking about the suicide scenario?
    Mr. Walpole. The scenario where you are losing everything 
anyway.
    Senator Levin. All right.
    Mr. Walpole. Whether it has been flight tested or not, I 
mean you can sit there and watch and say, ``Gee, it's too bad 
we didn't flight test.''
    Senator Levin. Are you talking about the suicide scenario?
    Mr. Walpole. Yes, and somebody says, ``Well flight test it, 
no.''
    Senator Levin. All right.
    Mr. Walpole. Put some coordinates in.
    Senator Levin. All right. So you are talking about the 
suicide scenario.
    Mr. Walpole. Yes.
    Senator Levin. All right. I got you. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Levin.
    The unclassified summary of the NIE states that, ``Iran is 
the next most likely country after North Korea to pose a threat 
to the United States.''
    The report lists several possible dates for when Iran could 
first flight-test an ICBM. What is your assessment as the 
National Intelligence Officer of when Iran will be capable of 
testing an ICBM?
    Mr. Walpole. Capable of testing, the Intelligence Community 
basically agrees in the next few years. Likely to test, as I 
said in an earlier answer, my view falls with the some that say 
also sometime in the next few years they'll test one that could 
reach the United States.
    Senator Cochran. Do you think Iran has made the decision to 
build an ICBM?
    Mr. Walpole. I do. Yes, but there is not agreement on that.
    Senator Cochran. Well, how will we know if Iran has made 
such a decision?
    Mr. Walpole. Sometimes you just won't know until you either 
see the item, or it is flown.
    Senator Cochran. What is your level of confidence that we 
will know when a decision has been made?
    Mr. Walpole. As I said earlier in my testimony, I think we 
do a pretty good job of projecting countries efforts and what 
they are striving for, but the specific performance and 
configuration we have some more difficulty. So, I'd say we are 
pretty good at laying our programs of concern.
    Senator Cochran. Given the transfer of technology between 
North Korea and Iran, should we expect North Korea to transfer 
an ICBM such as the three-stage Taepo Dong-1 missile to Iran?
    Mr. Walpole. I guess we could see that. I guess I wouldn't 
be surprised if I were to see that happen. I think if Iran were 
going to do a Taepo Dong-1 type system, that it would probably 
try to do it itself.
    Senator Cochran. What components does Iran need to build a 
three-stage Taepo Dong-1?
    Mr. Walpole. Well, a Taepo Dong-1 is basically the No Dong 
for the first stage, which they have got the Shahab-3. A SCUD 
for the second stage, and then they would need a third stage 
and they have got the technology to put one together.
    Senator Cochran. Could North Korea also transfer the more 
capable Taepo Dong-2 to Iran?
    Mr. Walpole. They could.
    Senator Cochran. Your report says, and I am going to quote, 
``Some countries that have traditionally been recipients of 
foreign missile technology are now sharing more among 
themselves and are pursuing cooperative missile ventures.''
    Do rogue states have technology that would be useful for 
them to proliferate to other nations?
    Mr. Walpole. Yes.
    Senator Cochran. What are the consequences of this trade, 
this proliferation?
    Mr. Walpole. It makes it harder to have the kind of impact 
you want export-control laws to have. Now you are using 
countries that didn't care about the export-control laws in the 
first place, and now you are trying to convince them, don't 
share with others.
    It was one thing to convince Russia and China to back off. 
It is totally different to tell North Korea and Iran to back 
off.
    Senator Cochran. Will this trade accelerate the ability of 
rogue states to develop or acquire ballistic missiles that 
threaten the United States?
    Mr. Walpole. I believe it will.
    Senator Cochran. What incentives are there for the rogue 
states to trade among themselves?
    Mr. Walpole. Well, I think there are the financial 
incentives; I think there is the prestige incentive; there is 
the cooperative adventure incentive, where one country works on 
one aspect of the weapons program and another works on another.
    Senator Cochran. Will the ballistic missile trade between 
rogue states make it more difficult for the Intelligence 
Community to monitor and gauge the extent of proliferation?
    Mr. Walpole. Yes, because it is just going to be many more 
targets to go after.
    Senator Cochran. Is it fair to say that missile 
proliferation to and among rogue states is not abating?
    Mr. Walpole. That is a pretty bold statement.
    Proliferation is continuing but we haven't seen the 
complete sale of a missile in a number of years. We had the M-
11 from China to Pakistan, we haven't seen that.
    We had CSS-2s from China to Saudi Arabia, we haven't seen 
that.
    So in that sense, we have seen things drop down some, but 
we are continuing to see trade.
    Senator Cochran. This is the first National Intelligence 
Estimate on the ballistic missile threat since 1995. Does this 
NIE place greater emphasis on the contribution of foreign 
assistance to a country's ballistic missile program than the 
1995 NIE did? If so, why?
    Mr. Walpole. The 1995 NIE, I think, gave some credit to 
MTCR that then didn't come to fruition, it didn't stop things 
the way that perhaps the 1995 Estimate thought that it would. 
So, yes, foreign assistance is a big player.
    Senator Cochran. This assessment of the capabilities of 
rogue states greatly contrasts with the assessment presented by 
the Intelligence Community in the 1995 NIE. For example, the 
1995 NIE stated that Iran would not be able to develop an ICBM 
before 2010 because it lacked the economic resources and 
technological infrastructure, yet the unclassified summary of 
the 1999 NIE states that Iran could flight-test a Taepo Dong 
style missile with ICBM ranges in the next few years. These two 
Estimates were written only 4 years apart. What has caused such 
a dramatic change in the Estimates of when these countries 
could develop long-range ballistic missiles?
    Mr. Walpole. The 1995 Estimate didn't talk about when the 
countries could develop these missiles. If you look at the 1995 
Estimate and compare that to the 1999 Estimate, then you are 
not going to see as stark a difference, so the ``could'' 
standard changed that a little bit. Now on top of that, I think 
that the idea of a copy-cat Taepo Dong-1 ICBM had not been 
contemplated in the 1995 NIE. So there are two differences.
    Senator Cochran. A non-proliferation brief released by the 
Carnegie Endowment for International Peace criticized the NIE 
for not taking into account the political factors that could 
change the nature of the threat. This brief suggests the threat 
from Iran, Iraq, and North Korea could disappear due to future 
changes in the political nature of these countries. In the NIE 
what assumptions did you make regarding U.S. relations with 
those states that are pursuing ballistic missiles?
    Mr. Walpole. First off, I take deference with the earlier 
comment. We did take into account political and economic 
factors. What we say in the unclassified paper is that we did 
it independent of significant political or economic change. 
That is, we projected what North Korea could do over 15 years, 
but if something changes, if there is a unification or 
whatever, that could change all of that. We didn't assume a 
major change like that in making our projection. And you could 
do the same thing with Iran, if Iran all of a sudden became a 
friend, and decided, ``Oh, gee we are not going to do this; we 
are only going to do a space launch program.'' Well, what we 
did was project what they could do technologically, 
economically, and given the current political situation in the 
country what is expected to extend.
    Senator Cochran. Do you think it is likely or realistic to 
expect that all of the ballistic missile threats to the United 
States will disappear before 2015?
    Mr. Walpole. Well, I wish, but I don't think it is likely.
    Senator Cochran. Without regard to specific countries, do 
you think the United States will face an ICBM threat from rogue 
states?
    Mr. Walpole. When?
    Senator Cochran. By before 2015.
    Mr. Walpole. Oh, before 2015? I don't like the term rogue 
states, but those are the states, yes.
    Senator Cochran. How could we better describe that? What 
would be more politically in fashion?
    Mr. Walpole. I tried to come up with emerging threats and 
so on, but I just decided to say North Korea, Iran, and Iraq. 
It takes me a little longer but I can live with it.
    Senator Cochran. Well, I was curious just for my own 
benefit. I feel bad calling them rogue states, it has serious 
outlaw kind of connotations, doesn't it?
    Mr. Walpole. It has a lot of connotations that just don't 
necessarily apply.
    Senator Cochran. Yes.
    Mr. Walpole. I just stopped using it.
    Senator Cochran. We will try to find another word. Maybe 
just naming the countries would be the best thing to do.
    The NIE states that nations like North Korea and Iran would 
develop countermeasures and penetration aids by the time they 
flight-test their long-range ballistic missiles. Are the 
countermeasure you listed as sophisticated as we would expect 
to see in a Russian ballistic missile?
    Mr. Walpole. No.
    Senator Cochran. If countermeasures were present, would 
they be rudimentary at first and then become more sophisticated 
over time or would these nations be able to deploy the more 
sophisticated countermeasures and penetration aids from the 
start?
    Mr. Walpole. Now, you are talking in terms of a different 
spectrum. Rudimentary has a lot of connotations too. They'll be 
able to deploy what is available out there in technology today, 
which I think is a little better than rudimentary and certainly 
not as sophisticated as what we, the Russians or the Chinese 
have.
    Senator Cochran. The NIE does not say that these nations 
will deploy these countermeasures and penetration aids on their 
ballistic missiles. Do you think they are likely to deploy 
these systems?
    Mr. Walpole. That was the discussion that we had earlier in 
terms of their countermeasures, so it is hard to put ``likely'' 
to all of that.
    Senator Cochran. In testimony last week, the Director of 
Central Intelligence said, ``Iran's emergence as a secondary 
supplier of this technology''--missile technology--``to other 
countries is the trend that worries me the most.''
    I used that in my opening statement and quoted it. Why is 
that threat so worrisome in your opinion?
    Mr. Walpole. As I said a bit ago, now you are getting the 
ones that we don't have as much influence over. It was one 
thing with our western allies, then with Russia and China, now 
we are moving to a group that we even have less influence over 
to try to get them not to share or leak.
    Senator Cochran. In addition to Iran's ballistic missile 
force, I am concerned about Iran's development of nuclear 
weapons. Recent press reports claim that the CIA cannot rule 
out the possibility that Iran has the ability to build nuclear 
weapons. Does Iran have the ability to build nuclear weapons?
    Mr. Walpole. There is another example of a leak that I 
would just as soon have not had occur. Iran has had a nuclear 
weapons program for some time, and I guess, I will make one 
other comment. There is a lot of information available in the 
open on how to put together a nuclear device. Let's just leave 
my unclassified answer there.
    Senator Cochran. When was the last time you conducted an 
NIE on Iran's nuclear weapons program?
    Mr. Walpole. Several years ago.
    Senator Cochran. Are you working on a new or updated NIE 
based on this new information?
    Mr. Walpole. We are, actually we have been for a little 
while, but when we end up with leaks like have had occurred it 
makes it harder to pursue.
    Senator Cochran. Senator Thompson, do you have any other 
questions?
    Senator Thompson. No, no further questions, Mr. Chairman. 
Thank you very much.
    One observation, perhaps. In listening to you it reminds me 
of the policy decisions that the Congress is going to have to 
address, in addition to questions of missile defense. It seems 
to me that three things are going on:
    One, continuing accelerating threat.
    Two, continuing aid and comfort by Russia and China.
    And third, our continuing to embrace and assist Russia and 
China without imposing any cost to them whatsoever for what 
they are doing.
    We are spending hundreds of millions of dollars in Russia 
now to help protect the nuclear stockpile and their scientists 
and so forth. We don't want to shoot ourselves in the foot by 
cutting that off. On the other hand, do we know where that 
money is really going?
    Most people, especially those of us who are free traders, 
we have got to consider the WTO and normal trade relations with 
China now. We call them our strategic partners while they 
continue; and we continue to catch them, and they continue to 
deny or deny and promise that they won't do it again, sign a 
new piece of paper.
    That M-11 missile situation--the administration says we 
only can see the missile canisters in Pakistan. We are not sure 
that missiles are in the canisters and the hoops the 
administration has jumped through in order to keep from 
applying sanctions that our law requires.
    So, it is a very complex situation--our relationship with 
Russia and China right now. But how in the world can we justify 
continuing down the road that we are going with them as much as 
we want normal relations with them in every respect, while they 
continue to arm people who are direct threats to this country? 
Those are the things that we have got on our plate.
    Senator Cochran. Thank you.
    Senator Thompson. Thank you very much, Mr. Chairman.
    Senator Cochran. Senator Levin, any other questions?
    Senator Levin. Just a couple more.
    On page 10 of your report you indicate that there is a 
difference among analysts as to the likely timing of Iran's 
first flight test.
    Mr. Walpole. Yes.
    Senator Levin. You have got some analysts who are saying it 
is likely before 2010 and very likely before 2015. You have 
another group saying, no more than an even chance by 2010 and a 
better than even chance by 2015. And a third group says less 
than an even chance by 2015. I think you fall in the first 
group, personally, do you?
    Mr. Walpole. I do.
    Senator Levin. Which is the dominant or the majority view 
among the analysts because those are three different 
assessments?
    Mr. Walpole. There isn't a dominant. At least the first two 
have most analysts in it, and to be fair, all three are 
defensible, justifiable positions.
    The first one, the one that I am, in looking at what Iran 
could do, and in fact with that--now we've been surprised by 
third stages, we've been surprised by people deploying things 
after only a few flight-tests--so, we will take what they could 
do and add a few years for problems and that is what we are 
going to put down.
    The second group said, wait a minute, this is still rocket 
science. Surprises or not, this is rocket science. It isn't all 
that easy so the problems are going to be more than you think 
they are going to be, so they added a little bit more.
    The third group said, on top of being rocket science and 
real hard, there are a lot of political factors that could just 
dissuade them from going down this path.
    Now given what I have said about projecting 15 years and 
being wrong, I can't tell you which one of those is right. I 
have chosen one because I think it is the most likely but they 
are all three defensible positions.
    Senator Levin. And when you talk about would do, could do, 
you are always talking here about development and deployment. 
You are not talking about likelihoods of use. In all cases you 
are not saying that----
    Mr. Walpole. There is element in flight-tests.
    Senator Levin. In flight testing, in all cases you are not 
saying that there is a likelihood of use by any of these 
countries, is that correct?
    Mr. Walpole. No.
    Senator Levin. And finally would you give us a list of 
countries that have assisted in the technical support and 
provision of technical information or of things to the missile 
program of any of these three countries, I will call them rogue 
states, I don't mind, including any of our allies that have 
provided technology, technical assistance, or pieces or parts? 
Would you give us that for the record?
    It is not just China or Russia. We have got allies who have 
supported technology transfer of information which has assisted 
in the development of missile programs on the part of countries 
that we are worried about. So we ought to see a much more 
complete list than just China and Russia, although they have 
obviously been involved. So would you give us that list of 
countries?
    Mr. Walpole. You want that classified?
    Senator Levin. Either way.
    Mr. Walpole. Either way, OK.
    Senator Levin. Thanks. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Levin.
    Mr. Walpole, thank you so much for being here today and 
presenting the unclassified summary for us to discuss. We 
appreciate your cooperation and assistance to our Subcommittee 
very much. Thank you.
    We now have a panel of two witnesses, Dr. William 
Schneider, Jr., of the Hudson Institute, and Joseph Cirincione, 
of the Carnegie Endowment for International Peace, to discuss 
the assessment of the ballistic missile threat.
    We have copies of statements that have been furnished to 
the Subcommittee by both witnesses which we appreciate very 
much and we will print them in the record of our hearing in 
full, and encourage you to make whatever summary comments you 
think would be helpful to our understanding of your views on 
this assessment of the National Intelligence Estimate.
    Dr. Schneider, you may proceed.

  TESTIMONY OF DR. WILLIAM SCHNEIDER, JR.,\1\ Ph.D., ADJUNCT 
                    FELLOW, HUDSON INSTITUTE

    Dr. Schneider. Thank you very much, Mr. Chairman. I 
appreciate the privilege to appear before this Subcommittee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Schneider with attachments appear 
in the Appendix on page 54.
---------------------------------------------------------------------------
    I will truncate my remarks and as you suggest, submit the 
copy of my remarks for the record.
    I would like to emphasize a couple of points. First, I 
think the NIE as published is an excellent document and adds 
materially to our understanding of the phenomenon of the 
proliferation of weapons of mass destruction and their means of 
delivery. Second, I think the most enduring contribution of 
this NIE has been the reflection the Intelligence Community has 
undertaken about the methodology by which they assess the 
evidence that they have acquired and the fact that the 
Intelligence Community has done such a thorough review, I 
think, will benefit many other areas of national security 
concern to the United States, and not merely the question of 
foreign missiles.
    Much of my information about this subject has been derived 
from my service on the Rumsfeld Commission, and the conclusions 
that were obtained during that deliberation and the findings 
associated with it, I believe, still obtain and I have included 
a copy of the Executive Summary of that report if the 
Subcommittee cares to publish it I will submit it.\2\
---------------------------------------------------------------------------
    \2\ The Executive Summary of the Rumsfeld Commission Report appears 
in the Appendix on page 107.
---------------------------------------------------------------------------
    Finally, just a few brief observations on some of the 
points in the Commission's Report.
    First, on the question of motivation for the acquisition of 
weapons of mass destruction and their means of delivery. Given 
the character of the effort that has been undertaken by North 
Korea and Iran in particular, while both countries are friendly 
to the use of terrorism and have done rather spectacular things 
through the use of terrorist techniques, I believe the scale of 
the effort that has been undertaken suggests that these are 
intended for coercive purposes for purposes of advancing their 
agenda as part of keeping the United States and other parties 
from intervening in the regions of concern.
    One other factor that I believe is stimulating the trend 
towards the development of proliferation of weapons of mass 
destruction that may not stop with Iran and North Korea is the 
enormous gains that the United States is making in advanced 
conventional weapons. These gains have the point where the 
traditional conventional military power is rapidly moving 
toward obsolescence and this is pushing a lot of the poorer 
countries such as North Korea and Iran towards weapons of mass 
destruction. They have always used the ballistic missiles 
because SCUDS have been available for many years; they were 
developed by the Soviet Union based on German V-2 rocket 
technology, but the idea of moving to ranges where they can 
directly threaten the homeland of the nations that might 
intervene in regional disputes in which they have an interest 
tips the scales in favor of a sustained interest in pursuing 
long-range missiles and weapons of mass destruction.
    Finally, on the question of foreign assistance, it is a 
question that deserves a good deal of understanding and study 
simply because the problem has changed radically since the 
liberalization of access to advanced technology since the end 
of the Cold War.
    One of the most prominent sources of information on nuclear 
weapon design comes from the United States because of the vast 
amount of material that has been declassified in recent years. 
Some of it is available on the websites of various 
organizations and it does provide material assistance on the 
design, manufacture, support, and deployment of weapons of mass 
destruction.
    This new NIE is a valuable contribution to our 
understanding of the scope and maturity of the missile threat. 
In the past 2 days we have seen press reports or leaks that 
suggest that there is still a substantial amount of energy left 
in the proliferation problem. The situation now, is that the 
Executive Branch and the Congress need to move decisively to 
find a way of devaluing the investment that is now being made 
in weapons of mass destruction and their means of delivery, so 
that we can contain this curse and try and diminish the 
likelihood that these weapons will be used.
    Thank you.
    Senator Cochran. Thank you very much for your statement.
    Mr. Cirincione.

TESTIMONY OF JOSEPH CIRINCIONE,\1\ DIRECTOR, NON-PROLIFERATION 
      PROJECT, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Cirincione. Thank you, Mr. Chairman. I greatly 
appreciate the hard work that you, the other Members of the 
Subcommittee, and the staff have done in tracking and 
documenting the spread of weapons of mass destruction, the 
single greatest national security threat that we face today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cirincione with attachments 
appear in the Appendix on page 71.
---------------------------------------------------------------------------
    It is an honor to be here and testify before you. I 
appreciate the hard work that Mr. Walpole and others have put 
into this assessment and I strongly agree with many parts of 
his assessment, particularly his often overlooked remarks that 
are in here that Senator Levin referred to, that they project 
in the coming years that U.S. territories probably are more 
likely to be attacked by a weapon of mass destruction from a 
non-missile delivery system than from a missile, a very 
important finding, one that most experts share.
    He also emphasizes in the report that the Russian threat, 
though significantly reduced, will continue to be the most 
robust and lethal, considerably more than China's and orders of 
magnitude more than the potential posed by the other states 
that are mentioned in this report.
    Unfortunately, the report doesn't spend too much time on 
either the ballistic missile threat from Russia or China, and 
that is one of several methodological flaws that I think 
reduces the value of this assessment for policy makers.
    If I could just briefly summarize knowing that my testimony 
will be entered into the record, I will just briefly summarize 
my comments on the methodological shortcomings of this report.
    I believe the 1999 unclassified NIE portrays known missile 
programs in several developing countries as more immediate 
threats than previous assessments have in the past. While there 
have been several significant tests of medium-range ballistic 
missiles over the past 2 years, this new assessment is more the 
function of a lowered evaluative criteria than of major changes 
in long-range missile capabilities. The change from the 
previously established Intelligence Agency criteria should be 
more clearly established in this report, so policy makers can 
understand why this assessment is different from all other 
assessments. In particular, the three assessments that I am 
talking about is the one that Mr. Walpole alluded to, they 
changed the criteria from when a country was likely to deploy a 
system to when it could first test its system. This represents 
a time change of about 5 years.
    In addition they changed the targets set. All previous 
assessments looked at attacks on the 48 continental States. 
This now looks at all 50 States and all territories of those 50 
States. That represents a geographical shift of about 5,000 
kilometers, that is the difference from Seattle, for example, 
to the tip of the Aleutian Island chain.
    Finally, and most important, is the adoption of the 
``could'' standard. This, I think, is the deepest 
methodological flaw in the report because it makes the report 
very mushy. It is very hard to find here what analysts really 
believe is likely to happen. So, when Senator Levin, for 
example, is asking, ``Is it likely that Iran will have an ICBM 
within the next 5 or 10 years? '', what you get is a range of 
opinions. There is no coherent Intelligence Community 
assessment. Everybody agrees that anything is possible, 
certainly in the next 10 years Iran could have an ICBM; many 
things could occur in the next 5 years, but what is most 
likely, what is most probable? Previous assessments have tried 
to have that predictive value, I think it is a shame that that 
predictive value has been obfuscated, obfuscated in this 
report.
    Finally, sir, let me suggest that there are several other 
things one might consider here. The assessments of these 
projected changes take place independent of significant 
political and economic changes. That results, I believe, in the 
overestimation of potential ballistic missile threats from 
Iraq, Iran, and North Korea and underestimates the dangers from 
existing arsenals. They assume that Russia and China will 
maintain status quo paths. If in fact, the international non-
proliferation regime collapses, if the international security 
regime is fundamentally altered by poor relations between the 
United States and Russia, poor relations between the United 
States and China, we could be facing a much more dangerous 
threat from those existing arsenals than we are likely to 
encounter from the potential arsenals of these three small 
states.
    And by focusing on developments in a small number of 
missile programs in these developing states, the NIE neglects a 
dramatic decline in global ballistic missile totals. That is, 
it simply isn't true that globally the ballistic missile threat 
is increasing. When you look at the global ballistic missile 
situation, I have tried to detail this on page 10 of my report, 
there has been over the last 15 years, a significant decrease 
in many important criteria of the ballistic missile threat. For 
example, the numbers of ICBMs in the world have been cut almost 
in half in the past 15 years. The number of intermediate-range 
ballistic missiles in the world have been all but eliminated--a 
99 percent decrease in the last 15 years. The short-range 
ballistic missile programs are largely consisting of short-
range SCUDS, that is 1950's technology which is aging and 
declining in military utility.
    Even the number of nations with ballistic missile programs 
has decreased over the last 15 years. There are eight countries 
we were worried about primarily 8 years ago; there are only 
seven now. They are different countries and they are poorer, 
less technologically advanced than the countries we were 
worried about 15 years ago.
    And finally, most importantly, the level of damage that 
could occur to the United States as a result of ballistic 
missiles is vastly decreased from what it was 15 years ago when 
we were worried about global thermonuclear war. We were worried 
about an attack that would destroy the Nation. There are still 
significant threats, we should be worried about a possible 
ballistic missile attack on the United States over the next 15 
years, but it would be one of terrible but still limited damage 
to what occurred over the past 15 years.
    So, I think if we look at the global context of this, we 
can see that the threat from ballistic missiles is serious, 
deserves our urgent consideration, but is much less dramatic 
than is sometimes portrayed by advocates of deploying a 
national ballistic missile system and I will end by urging the 
Congress to conduct a review, an outside review of this 
assessment to see whether in fact there are methodological 
flaws that I have identified and whether they could be 
corrected, and to consider an objective assessment of the 
technologies that exist for ballistic missile defense to filter 
out political agendas, contractor influences, and other 
considerations from this critical national security decision to 
see whether in fact the technology exists to provide an 
effective defense for the United States against ballistic 
missile attack.
    Thank you, sir.
    Senator Cochran. Thank you very much. We appreciate both of 
your attendance at today's hearing and your participation in 
and assistance to our understanding of your views on this, the 
Estimate, and an assessment of the National Intelligence 
Estimate.
    There seems to be still, a disconnect between what Mr. 
Walpole said was the goal of this 1999 Estimate as compared 
with the 1995 one and that is not only to suggest what is 
likely or expected to happen in the future years, but what 
could happen in the future years. And that he put in italics 
the fact that they were also going to include what their 
expectation was for the future, what would be likely to happen. 
And now we hear Mr. Cirincione repeating the same criticism 
saying that this Estimate includes only what is possible, what 
could happen in the future. So there seems to be the continued 
disconnect between what the NIE says it says, and what Mr. 
Cirincione says it says.
    Beyond that, I guess my question is, what are your views, 
each member of this panel, about the effect of vulnerability of 
the United States in the absence of a missile defense system? 
What is the effect of the vulnerability of the United States at 
this time on the likelihood that foreign nations like North 
Korea, Iran, and Iraq would develop long-range missile systems 
to threaten the United States? Would it be more likely that 
they would develop these systems if we had a national missile 
defense system or less likely?
    Dr. Schneider, would you go first?
    Dr. Schneider. My view of the vulnerability is a factor 
that stimulates the development of the various means of 
delivering weapons of mass destruction. The one area for which 
we have no defense at this stage is defenses against ballistic 
missile attack. We do have some defenses against cruise missile 
attack and we have a $10 billion counter terrorism budget, so 
in terms of where the effort gets allocated by those who seek 
to impose a threat to the United States for purposes of 
coercive diplomacy, they are likely to follow the path of least 
resistance, which is to date in ballistic missiles.
    I suspect if we deploy a national missile defense that they 
will try and shift efforts to some of the other areas where we 
already have undertaken some defensive effort such as cruise 
missiles or the terrorist delivery of WMD.
    Senator Cochran. Mr. Cirincione.
    Mr. Cirincione. Yes sir, I don't believe that this 
``could'' issue, by the way is a disconnect; it is in the body 
of the assessment itself. It notes that some of the analysts 
involved in the assessment objected to the adoption of this 
standard. It is the standard that was introduced by the 
Rumsfeld Commission and one that I think is detrimental to good 
predictive analysis.
    Particularly on the question that you ask, however, I 
believe that countries will continue to pursue ballistic 
missile programs independent of whether the United States 
attempts to build a ballistic missile shield or not. Remember 
we had a ballistic missile shield for some time. It didn't seem 
to affect ballistic missile programs at that time.
    Senator Cochran. Senator Akaka.
    Senator Akaka. Mr. Cirincione, you mentioned in your 
testimony where you disagree with the Rumsfeld Commission 
report. Are there conclusions which you agree with?
    Mr. Cirincione. Well, there are lots of words in the 
Rumsfeld Commission report, I am sure I could find some that I 
agree with. But the basic thrust, you see, is that they 
concluded--and this is what made the headlines--that a country 
could field a ballistic missile that could strike the United 
States with little or no warning, that is tomorrow we could 
wake up and find that Argentina had a missile that could attack 
the United States. I just believe that isn't true. It is 
fundamentally untrue and has resulted in a certain hysteria 
about the ballistic missile threat. So fundamentally and at its 
core, I disagree with the Commission's assessment.
    Senator Akaka. How would you like to see the Intelligence 
Community address developing threats in the future? Is there a 
need for a new alternative such as Team B approach which would 
look at other factors affecting likely threats?
    Mr. Cirincione. Well, this current assessment is the result 
of exactly a Team B approach so I wouldn't recommend that 
approach. We have this 1999 assessment because Congress 
strongly disagreed with the 1995 National Intelligence 
Estimate, and so it convened a special panel, the Gates Panel, 
headed up by the former Director of the CIA, and that panel 
reviewed the 1995 assessment and in 1996, found out that it 
completely agreed with the assessment. Former Director Gates 
testified here in the Senate in December 1996, agreeing with 
the 1995 assessment, and thought the case was even stronger 
than had been presented publicly. Certain Members of Congress 
didn't like that finding so they convened another review. This 
was the Rumsfeld Commission which finally gave them the answer 
that many Members wanted, which is that the ballistic missile 
threat was more robust than had been found by the Intelligence 
Community. The National Intelligence Community has responded by 
basically adopting the Rumsfeld Commission standards and 
finally presenting to the Congress an assessment that they 
agree with.
    Senator Akaka. Dr. Schneider, before the House Armed 
Services Committee on October 13, 1999, one of your colleagues 
on the Rumsfeld Commission, Dr. William Graham, criticized the 
NIE for placing, ``Too much weight on the intentions without 
trying to evaluate how they might change.'' He said, ``It is 
particularly important to be cautious of Intelligence Community 
Estimates that on the one hand focus on capacities and then on 
the other state that they do not consider major changes in a 
government policy.''
    Would you agree with this statement?
    Dr. Schneider. It is difficult when making a 15-year 
assessment to manage, as Mr. Walpole suggested, the vagaries of 
international politics and how that might affect it. So I am 
sympathetic with the point of view that suggests that somehow 
this, while a very important factor, is difficult to 
incorporate. That being said, I do think that the Intelligence 
Community has got the right balance in the way they have come 
to assess this. The issue of the methodology about how it is 
assessed was one of the more detailed efforts of the Rumsfeld 
Commission. Three of our members are particularly well 
identified with a position that is skeptical of ballistic 
missile defenses and have a powerful advocacy position with 
respect to arms control. Dr. Richard Garwin, for example, now 
Secretary Albright's advisor on Arms Control and Counter-
Proliferation.
    General Lee Butler has advocated abandoning nuclear weapons 
entirely; Dr. Barry Bleckman is a well known arms control 
expert. All of these specialists look very carefully at the 
methodology about the most constructive way to get a grip on 
the threat. They shared the perspective that is reflected in 
the Rumsfeld Commission Report. I believe that the approach in 
the Rumsfeld Commission Report is a good way to do it.
    Senator Akaka. In your testimony before the Senate Foreign 
Relations Committee on April 20, 1999, you stated that, ``The 
use of surface ship launch missiles may be especially 
attractive to Iran in attacking the weapons of mass 
destruction.''
    How useful would an NMD be against such an attack?
    Dr. Schneider. Well, it would depend on the range of the 
missile used from a shipboard attack. If they used a short-
range missile with less than 2,000 nautical mile range, the 
National Missile Defense System is constrained from being 
effective at those ranges under the terms of the AVM treaty so 
it would not have any effect on those. You would have to depend 
on a theater type system such as THAAD or a Patriot PAC-3 as a 
way of engaging missiles that were delivered that had a shorter 
range than could not be engaged by the National Missile Defense 
System.
    Senator Akaka. The administration has talks underway with 
the North Koreans to restrain their missile exports and 
development. If the administration is successful, how do you 
think the progress should affect our National Missile Defense 
Program?
    Dr. Schneider. First, North Korea is not the only country 
that poses a potential threat to the United States so that if 
the negotiations are successful and relations improve with 
North Korea that it should be addressed as a bilateral matter 
rather than a question of worldwide policy. However, if the 
news story in the Washington Times today about the shipment of 
No Dong engines to Iran turns out to be correct, then I think 
the effectiveness of the efforts with North Korea are clearly 
in doubt.
    Senator Akaka. My last question, Mr. Chairman.
    What if we were to convince the Iranians to suspend their 
ICBM program, how should that affect our NMD program?
    Dr. Schneider. Again, the question of missile defense is 
most recently driven by developments in Iran and North Korea, 
however those are not the only countries that are getting this 
technology and those that do have it such as for example, 
Pakistan has expressed readiness to export their missiles to 
other countries so the missile threat is not resolved solely by 
improved bilateral relations with either Iran or North Korea. 
Our vulnerability to ballistic missiles needs to be addressed 
in the same way we deal with other security vulnerabilities 
though our defense establishment.
    Senator Akaka. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Akaka. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Let me ask both of you whether you agree with the statement 
of Mr. Walpole and the finding of the National Intelligence 
Council relative to non-missile delivery means and the 
statement is this, ``We project that in the coming years U.S. 
territories are probably more likely to be attacked with 
weapons of mass destruction from non-missile delivery means 
(most likely from non-state entities) than by missiles, 
primarily because non-missile delivery means are less costly 
and more reliable and accurate. They can also be used without 
attribution.''
    I am wondering Mr. Cirincione, do you agree with that?
    Mr. Cirincione. Yes, sir I do, I strongly agree with that.
    Senator Levin. Dr. Schneider, do you agree with that?
    Dr. Schneider. Yes, I do because there are three hundred 
crank calls a week on anthrax scares, so yes, if you score them 
that way. But I think if you disaggregated the number into 
state actors, that is if you are considering only states as 
players that would manipulate or actually engage in the use of 
weapons of mass destruction, then I think missile delivery is 
probably a more likely scenario in the short-term. This would 
be so unless the phenomenon I described earlier, where missile 
defenses were deployed, proliferators would try and follow the 
path of least resistance and use ballistic missiles.
    Senator Levin. So that in terms of states, you do not agree 
with that finding?
    Mr. Cirincione. Correct.
    Senator Levin. So, you both disagree with parts of this 
Intelligence Estimate.
    Dr. Schneider, would you agree that the Rumsfeld panel made 
no finding relative to the deployment of missile defenses?
    Dr. Schneider. No, it was not in our charter.
    Senator Levin. That has really been so misunderstood. I am 
looking at an editorial in a highly respected newspaper, the 
Washington Post, it says the following: A well respected 
Congressional advisory panel in 1998, urged the deployment.
    That is not accurate?
    Dr. Schneider. That is not correct.
    Senator Levin. And I think it is really important that 
those of you who were on the panel continue to do what was done 
when the panel report was presented, which is to indicate that 
on that issue whether or not deployment of a national missile 
defense system should occur, that the panel itself took no 
position--even though they found that the North Korean threat 
was closer than had previously been expected.
    Dr. Schneider. That is correct and I had proposed to the 
Chairman, that I include the Executive Summary of the Rumsfeld 
Commission Report in my testimony. I think this will make that 
clear.\1\
---------------------------------------------------------------------------
    \1\ The Executive Summary of the Rumsfeld Commission Report appears 
in the Appendix on page 107.
---------------------------------------------------------------------------
    Senator Levin. I think it is very important that everybody 
on that panel, whatever side of the deployment issue that they 
are on, make it clear that the panel did not address the issue, 
and reached no conclusion on the issue relative to deployment 
of missile defenses. There is some misunderstanding about what 
the panel found and what they didn't find and that 
misunderstanding can have an effect on the debate. So, thank 
you for that clarification.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you very much, Senator Levin.
    Let me ask both of you this question. The NIE says 
acquiring long-range ballistic missiles armed with WMD will 
enable weaker countries to do three things that they otherwise 
might not be able to do: Deter, constrain, and harm the United 
States.
    Do you think there is utility for rogue states to merely 
possess ICBMs, even if they are not used, Mr. Cirincione?
    Mr. Cirincione. Actually, sir, I disagree specifically with 
that statement. I think this confuses weapons of mass 
destruction with delivery vehicles. That is a nation, and I do 
believe that it is more likely that a nation state that wanted 
to threaten the United States with a weapon of mass destruction 
would do so, not with a missile but by finding another delivery 
means. So a nation that had secreted a nuclear weapon in 
Washington or Fairbanks and said that it was there and would 
detonate it unless so-and-so, would be just as able to deter, 
constrain, and harm the United States as a country that claimed 
to have a nuclear warhead on top of a ballistic missile. So, I 
don't believe the possession of ballistic missiles is a unique 
capability to deter, constrain, or harm.
    Senator Cochran. Dr. Schneider.
    Dr. Schneider. I believe that a long-range missile delivery 
is a much more persuasive way of dealing with it than the 
notion of an attempted terrorist delivery. We had a recent 
example over the Christmas holiday and immediately thereafter 
of a terrorist group that was trying to infiltrate the United 
States through a very clever scheme involving multiple points 
of entry. They were apprehended by law enforcement 
organizations and the case is now being investigated.
    The probability of detection of terrorist organizations is 
one of the successful results of the $10 billion counter 
terrorism program we have in the Federal budget. The risks that 
would be taken by a state in trying to sneak a WMD device into 
the United States where culpability could be ascertained, is 
extremely high.
    On the other hand, the manipulation of WMD and long range 
missile threat could be very powerful and I call your attention 
to a colloquy that took place between Secretary Rumsfeld and 
Senator John Kerry in a testimony before the Senate Select 
Committee on Intelligence on the Rumsfeld Commission Report. 
Secretary Rumsfeld has the rare perspective of being both the 
White House Chief of Staff and a Secretary of Defense. He went 
through a very interesting thought process that is derived from 
that experience about the impact that an Iraqi possession of 
long-range ballistic missiles and weapons of mass destruction 
might have had on the White House in 1991 if they were 
contemplating intervention in a Gulf region security crisis. I 
can't reproduce the colloquies as effectively as I would like, 
but it was a very compelling one suggesting that the possession 
of this could have a very powerful impact on opportunities for 
coercive diplomacy in these kinds of scenarios.
    Senator Cochran. Mr. Cirincione, though the NIE discusses 
the value of ICBMs to rogue states, some have suggested that 
ICBMs are actually of little value for rogue states. Do you 
agree with that?
    Mr. Cirincione. Oh no, I think they are of some value. If I 
was a rogue state I would like to have an ICBM. The trouble is 
that it is not easy to do. If it was easy, everybody would do 
it. It is technologically demanding. This is a very difficult 
and demanding technology to master, so I expect it is going to 
take a very long time before any other country has an ICBM 
capable of delivering a nuclear warhead on the United States.
    Senator Cochran. Dr. Schneider, what do nations like North 
Korea, Iran, and Iraq gain by developing missiles like ICBMs or 
longer-range missiles?
    Dr. Schneider. Take the case, first of North Korea, I think 
they gain several things, one is they are the largest U.S. aid 
recipient in Asia, which is a testimony to their management 
skills in the manipulation of their WMD program and ballistic 
missiles. But also they have been able to equalize their status 
with South Korea despite the fact that South Korea is a much 
richer state, it is a democratic state, it is a state which 
whom we have had good relations, largely as a consequence of 
the WMD and missile threat they are able to manipulate.
    I think this is replicated in Iran as well. Their ability 
to deploy weapons of mass destruction and deliver them at great 
ranges with ballistic missiles has made them the most powerful 
and influential state in the Gulf region. In the security arena 
it has obliged the United States to revisit its policies 
concerning how it would deploy forces in the future in a Gulf 
region security crisis. As a result there are powerful 
incentives for them to go down this path. Since North Korea and 
Iran are moving incrementally to an ICBM capability, it is 
clear that they wish to have this ace-in-the-hole of an ability 
to threaten the territory of the United States.
    Senator Cochran. Dr. Schneider, you brought to our 
attention the fact that we have this $10 billion effort 
underway to deal with threats such as terrorist attacks on the 
United States, but some claim that we are paying too much 
attention and spending too much money on ballistic missile 
threats and defending against them. Do you think we are paying 
too much attention to the ballistic missile threat over the 
other threats?
    Dr. Schneider. No, I think it is important to look at these 
threats posed by weapons of mass destruction in a holistic way; 
there are several ways in which they can be delivered. 
Terrorism is one means, cruise missiles and manned aircraft are 
another means. Ballistic missiles are yet another means. We 
need to be able to engage all of these. I strongly support the 
effort that the President has proposed for this $10 billion 
counter terrorist effort. I think we will probably need to do 
more in the way of cruise missile defense, especially national 
cruise missile defense in the future and I think the Congress 
initiated such a program just last year. But, ballistic missile 
defense is the area where for a variety of reasons, we have not 
engaged and as a result, the path of least resistance has been 
taken by those for whom it is important to maintain a threat 
against the United States. I think the effort that we make to 
invest in a national missile defense program--and this is a 
personal view, not the view of the Rumsfeld Commission--would 
contribute to devaluing the investment in ballistic missiles. 
It would do so by making it worth less simply because ballistic 
missiles are much less likely to have the desired effect either 
in terms of coercive diplomacy or in actual use.
    Senator Cochran. Mr. Cirincione, in a recent Los Angeles 
Times article you criticized NIE as being less useful to policy 
makers because it avoided the issue of whether threats might 
actually disappear. In this article you said that under some 
scenarios, North Korea may collapse before the fielding of a 
national missile defense system. Do you believe that all of the 
threats described in this NIE will probably disappear before 
the fielding of a national defense system?
    Mr. Cirincione. It depends when you think we are going to 
field this system. Well, sir I base that comment on testimony 
given to the Congress by the Director of the DIA, General 
Patrick Hughes, who testified that North Korea was probably 
terminal. This was 2 years ago and I think many analysts 
believe that it is probable that North Korea is going to 
collapse in the short term, that is, over the next 5 to 10 
years. And I think that is just as important a ``could'' 
possibility that should be considered as a possibility that 
North Korea could, or Iran could, field an ICBM. And that is 
why it is so urgent when you make these kinds of assessments, 
to the greatest extent possible, to bring in the political, 
economic, and diplomatic factors, so that you have a net 
assessment.
    We do that all the time, we don't worry about Japan for 
example, in this assessment because we judge that even though 
Japan could develop an ICBM, they are unlikely to do that. That 
actually could change dramatically if the situation in Asia 
spiraled out of control; if relations with China deteriorated; 
if India fielded large numbers of ballistic missiles, Japan may 
decide that they actually should deploy a ballistic missile, 
that they should become a nuclear nation. That is the kind of 
political variable that is very important for the intelligence 
agencies to bring into their assessments and that is lacking 
here, and I would hope that the Congress would help encourage 
the intelligence agencies, to the greatest extent possible, to 
integrate their assessment so they really give Congress the 
kind of predictive tool that they need. That was the basis of 
my statement to the Los Angeles Times.
    Senator Cochran. Dr. William Perry, who as you know is our 
former Secretary of Defense and is now serving as the 
Coordinator for U.S.-North Korea Policy, said in his review of 
U.S. policy, that the United States needs to deal with the 
North Korean Government as it is because, ``there is no 
evidence that change is imminent.''
    So my follow up is, should the United States deal with 
North Korea's long-range missile programs as if no change is 
imminent? Is he right or is he wrong?
    Mr. Cirincione. Well, frankly, I believe he is wrong. I 
think all indications are that change is fairly imminent, that 
is 5 to 10 years in North Korea. I do not believe that that 
regime can survive.
    Senator Cochran. Dr. Schneider, looking at the August 1998 
Taepo Dong-1 launch by North Korea, what technologies for 
developing ICBMs did North Korea demonstrate by that launch?
    Dr. Schneider. The most important feature was the ability 
to have successful stage separation. That is, when the first 
stage of the missile carried aloft the second stage it was able 
to separate the two stages without damaging the other stage or 
otherwise inhibiting its ability to perform permitting the 
third stage also separated successfully. This is the core 
capability necessary to develop an ICBM. Ultimately if you can 
put a payload in orbit, you have an ICBM capability.
    Senator Cochran. But we have seen a clear pattern in rogue 
state programs where they begin their programs with SCUD-type 
technology. Do we need to be concerned about, not only North 
Korea, but other countries leveraging this SCUD technology to 
develop longer-range ballistic missiles?
    Dr. Schneider. Yes I think it is a source of concern for a 
number of reasons.
    One, is that it is a highly mature technology. Several 
thousand launches have been undertaken using this technology. 
This contributes to a need for less testing because of the 
maturity of the technology.
    Second, the technology is very cheap to manufacture and 
hence North Korea is able to have as one of its core 
competencies the ability to cheaply manufacture liquid fuel 
technology based on relatively simple evolutions of the 
underlying SCUD technology.
    I believe it is a source for concern because it does create 
a direct path to an ICBM.
    Senator Cochran. Let me ask both of you about the NIE 
assessment of the likelihood of an unauthorized or accidental 
launch of ballistic missiles from Russia or China. It describes 
this as highly unlikely.
    Mr. Cirincione, do you agree with the NIE on that point?
    Mr. Cirincione. I don't believe it is highly unlikely. I do 
believe it is unlikely, but I also agree with the 1995 NIE, 
which cautioned when it made a similar prediction, ``We are 
less confident about the future in view of the fluid political 
situation in both countries, Russia and China. If there were 
severe political crisis in either country, control of the 
nuclear command structure could become less certain, increasing 
the possibility of an authorized launch.''
    I think the political situation in both of those nations 
remains very fluid. I am deeply pessimistic about the future of 
Russia which is why I tried to stress in my testimony that much 
more of our attention has to be focused on the here and now; on 
the five thousand nuclear warheads that sit atop ballistic 
missiles in Russia. That is the ballistic missile threat we 
really should be worried about and I am afraid that situation 
is going to become less stable in the next 5 to 10 years, 
increasing the probability not just of an accidental launch, 
but the possibility for fragmentation of Russia where we see 
new nuclear-armed nations emerging and the possibility of 
transfer or sale of those assets to third parties. That is the 
real danger. That is the real threat that we would face from a 
third Nation getting a ballistic missile, they would simply buy 
it.
    Senator Cochran. Dr. Schneider.
    Dr. Schneider. There was an important caveat in the NIE 
that suggested that unauthorized launch was highly unlikely if 
existing procedural safeguards remained in place. The Russians 
have inherited the command and control system of the former 
Soviet Union and I am persuaded that that is a good system. 
However, if there is deterioration in the state control of the 
assets, that is the nuclear weapon delivery systems, and it 
causes a breakdown in the procedural safeguards then, of course 
it would be possible for an accidental or an unauthorized 
launch to take place.
    Similarly a source of concern is the degradation in the 
effectiveness of the warning systems where they may mistake a 
phenomenon that they see for a launch and try to respond. We 
have some concerns about an incident 5 years ago and I think 
those concerns remain.
    Senator Cochran. Mr. Cirincione, in your opening statement 
which we put in the record in full, you characterize the 
Rumsfeld Commission's conclusions as hysterical. What do you 
mean by that?
    Mr. Cirincione. Well, sir, my exact phrase was ``somewhat 
hysterical.''
    Senator Cochran. Oh, I am sorry.
    Mr. Cirincione. That is quite all right.
    I believe that it is somewhat hysterical to assert that the 
United States could have little or no warning of a new ICBM in 
the world. I simply don't believe that is true. I think that is 
an extreme view that we could wake up tomorrow--and I heard 
Members of Congress take to the floor and say things like this 
after the Rumsfeld Commission Report--that we could wake up 
tomorrow and find that Libya had deployed an ICBM. I simply 
don't think our Intelligence capabilities are that poor. I 
don't think building an ICBM is that easy. I don't believe 
missiles pop in and out of existence like virtual particles. 
There is a trail; there is a way to ascertain this. I think we 
have a very good grasp on who has what kind of missile program. 
I don't think we are in for those kinds of gigantic surprises 
that Vanuatu suddenly fields an ICBM, even though by 
consistently applying the ``could'' standard of the Rumsfeld 
Commission that is a ``could'' possibility.
    Senator Cochran. Dr. Schneider, do you agree with the 
conclusions of the Rumsfeld Commission, that they were somewhat 
hysterical or---- [Laughter.]
    Dr. Schneider. No, I think they were very restrained and 
offered with the sobriety that the subject requires.
    I think part of the confusion is to equate a threat to the 
United States with an ICBM capability. There are a number of 
ways, including some mentioned in the NIE, in which a ballistic 
missile can be delivered to the United States without it being 
an ICBM. One example is a launch from a surface ship. This 
technology is not at all new. The Germans demonstrated it 
during World War II. The Russians have frequently launched 
ballistic missiles from surface ships. We launched a Polaris 
missile from a merchant ship in the early 1960's. This is not 
rocket science. This is navigation and as a consequence, the 
possibility that a ballistic missile threat could be posed to 
the United States without warning is a very real one. A SCUD 
missile on a transporter erector launcher (TEL) which is 
similar to an off-road logging vehicle, can be put in the hold 
of a merchant ship and the merchant ship sail the first 9,500 
km. of the voyage needed to get to the United States. The last 
500 or so are managed by the short-range ballistic missile 
launched from the ship.
    The usual problems that have been referred to in the past 
of command, control, and navigation. These have largely been 
dispensed with because of the availability of high-quality 
commercial communications such as INMARSAT and modern 
commercial navigation such as that available from the global 
positioning system (GPS). So this is practical; it has been 
widely demonstrated, and it should be counted as a part of the 
portfolio of ballistic missile threats that can threaten the 
United States.
    Mr. Cirincione. But sir, if you are going to have a 
merchant ship, why bother with a ballistic missile? Why don't 
you continue sailing those last hundred miles into the harbor 
and detonate the device then? That is way before Customs is 
going to be able to get you. You don't need the ballistic 
missile to make that kind of threat.
    Dr. Schneider. I guess you blow yourself up. That is the 
answer.
    Mr. Cirincione. Well, we have a lot of evidence that people 
are willing to do that.
    Dr. Schneider. Yes, but there probably would be a low 
volunteer rate for that duty. [Laughter.]
    Mr. Cirincione. Some nations have a very high volunteer 
rate for exactly those kinds of things.
    Senator Cochran. Let me ask both of you this question. How 
much warning time, for example, do you think the Intelligence 
Community would be able to provide if Iran decided to develop 
an ICBM like the three-stage Taepo Dong-1? Dr. Schneider.
    Dr. Schneider. Well, it could be done by the weekend if the 
missiles were put on a 747 and flown to Iran where they would 
just set them up. We had a circumstance in the 1980's when 
China delivered the CSS-2 missiles to Saudi Arabia. We didn't 
know about it until after the transaction was implemented, so 
it is quite possible that we could be surprised because there 
are a number of ways in which an adversary-state can acquire 
ballistic missiles other than going to engineering school and 
starting to mine the aluminum and steel out of the ground. It 
is possible to simply buy these things off the shelf.
    Senator Cochran. Mr. Cirincione.
    Mr. Cirincione. If they tried to build it themselves--
years. If they smuggled it in piece by piece and assembled it--
very little warning time.
    Senator Cochran. Well, I think this has been a very helpful 
hearing. I appreciate very much your both being here to help us 
understand this National Intelligence Estimate and Mr. 
Walpole's participation in the hearing and his presentation of 
the unclassified summary for our review, and the participation 
of Senators. I think this has been an excellent afternoon, 
interesting and informative as well. So thank you very, very 
much.
    Dr. Schneider. It was an honor to be here.
    Senator Cochran. This concludes our hearing. We stand in 
recess.
    [Whereupon, at 4:34 p.m., the Subcommittee was adjourned, 
to reconvene at the call of the Chair.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3638.001

[GRAPHIC] [TIFF OMITTED] T3638.002

[GRAPHIC] [TIFF OMITTED] T3638.003

[GRAPHIC] [TIFF OMITTED] T3638.004

[GRAPHIC] [TIFF OMITTED] T3638.005

[GRAPHIC] [TIFF OMITTED] T3638.006

[GRAPHIC] [TIFF OMITTED] T3638.007

[GRAPHIC] [TIFF OMITTED] T3638.008

[GRAPHIC] [TIFF OMITTED] T3638.009

[GRAPHIC] [TIFF OMITTED] T3638.010

[GRAPHIC] [TIFF OMITTED] T3638.011

[GRAPHIC] [TIFF OMITTED] T3638.012

[GRAPHIC] [TIFF OMITTED] T3638.013

[GRAPHIC] [TIFF OMITTED] T3638.014

[GRAPHIC] [TIFF OMITTED] T3638.015

[GRAPHIC] [TIFF OMITTED] T3638.016

[GRAPHIC] [TIFF OMITTED] T3638.017

[GRAPHIC] [TIFF OMITTED] T3638.018

[GRAPHIC] [TIFF OMITTED] T3638.019

[GRAPHIC] [TIFF OMITTED] T3638.020

[GRAPHIC] [TIFF OMITTED] T3638.021

[GRAPHIC] [TIFF OMITTED] T3638.022

[GRAPHIC] [TIFF OMITTED] T3638.023

[GRAPHIC] [TIFF OMITTED] T3638.024

[GRAPHIC] [TIFF OMITTED] T3638.025

[GRAPHIC] [TIFF OMITTED] T3638.026

[GRAPHIC] [TIFF OMITTED] T3638.027

[GRAPHIC] [TIFF OMITTED] T3638.028

[GRAPHIC] [TIFF OMITTED] T3638.029

[GRAPHIC] [TIFF OMITTED] T3638.030

[GRAPHIC] [TIFF OMITTED] T3638.031

[GRAPHIC] [TIFF OMITTED] T3638.032

[GRAPHIC] [TIFF OMITTED] T3638.033

[GRAPHIC] [TIFF OMITTED] T3638.034

[GRAPHIC] [TIFF OMITTED] T3638.035

[GRAPHIC] [TIFF OMITTED] T3638.036

[GRAPHIC] [TIFF OMITTED] T3638.037

[GRAPHIC] [TIFF OMITTED] T3638.038

[GRAPHIC] [TIFF OMITTED] T3638.039

[GRAPHIC] [TIFF OMITTED] T3638.040

[GRAPHIC] [TIFF OMITTED] T3638.041

[GRAPHIC] [TIFF OMITTED] T3638.042

[GRAPHIC] [TIFF OMITTED] T3638.043

[GRAPHIC] [TIFF OMITTED] T3638.044

[GRAPHIC] [TIFF OMITTED] T3638.045

[GRAPHIC] [TIFF OMITTED] T3638.046

[GRAPHIC] [TIFF OMITTED] T3638.047

[GRAPHIC] [TIFF OMITTED] T3638.048

[GRAPHIC] [TIFF OMITTED] T3638.049

[GRAPHIC] [TIFF OMITTED] T3638.050

[GRAPHIC] [TIFF OMITTED] T3638.051

[GRAPHIC] [TIFF OMITTED] T3638.052

[GRAPHIC] [TIFF OMITTED] T3638.053

[GRAPHIC] [TIFF OMITTED] T3638.054

[GRAPHIC] [TIFF OMITTED] T3638.055

[GRAPHIC] [TIFF OMITTED] T3638.056

[GRAPHIC] [TIFF OMITTED] T3638.057

[GRAPHIC] [TIFF OMITTED] T3638.058

[GRAPHIC] [TIFF OMITTED] T3638.059

[GRAPHIC] [TIFF OMITTED] T3638.060

[GRAPHIC] [TIFF OMITTED] T3638.061

[GRAPHIC] [TIFF OMITTED] T3638.062

[GRAPHIC] [TIFF OMITTED] T3638.063

[GRAPHIC] [TIFF OMITTED] T3638.064

[GRAPHIC] [TIFF OMITTED] T3638.065

[GRAPHIC] [TIFF OMITTED] T3638.066

[GRAPHIC] [TIFF OMITTED] T3638.067

[GRAPHIC] [TIFF OMITTED] T3638.068

[GRAPHIC] [TIFF OMITTED] T3638.069

[GRAPHIC] [TIFF OMITTED] T3638.070

[GRAPHIC] [TIFF OMITTED] T3638.071

[GRAPHIC] [TIFF OMITTED] T3638.072

[GRAPHIC] [TIFF OMITTED] T3638.073

[GRAPHIC] [TIFF OMITTED] T3638.074

[GRAPHIC] [TIFF OMITTED] T3638.075

[GRAPHIC] [TIFF OMITTED] T3638.076

[GRAPHIC] [TIFF OMITTED] T3638.077

[GRAPHIC] [TIFF OMITTED] T3638.078

[GRAPHIC] [TIFF OMITTED] T3638.079

[GRAPHIC] [TIFF OMITTED] T3638.080

[GRAPHIC] [TIFF OMITTED] T3638.081

[GRAPHIC] [TIFF OMITTED] T3638.082

[GRAPHIC] [TIFF OMITTED] T3638.083

[GRAPHIC] [TIFF OMITTED] T3638.084

[GRAPHIC] [TIFF OMITTED] T3638.085

[GRAPHIC] [TIFF OMITTED] T3638.086

[GRAPHIC] [TIFF OMITTED] T3638.087

[GRAPHIC] [TIFF OMITTED] T3638.088

[GRAPHIC] [TIFF OMITTED] T3638.089

[GRAPHIC] [TIFF OMITTED] T3638.090

[GRAPHIC] [TIFF OMITTED] T3638.091

[GRAPHIC] [TIFF OMITTED] T3638.092

[GRAPHIC] [TIFF OMITTED] T3638.093

[GRAPHIC] [TIFF OMITTED] T3638.094

[GRAPHIC] [TIFF OMITTED] T3638.095

[GRAPHIC] [TIFF OMITTED] T3638.096

[GRAPHIC] [TIFF OMITTED] T3638.097

[GRAPHIC] [TIFF OMITTED] T3638.098

[GRAPHIC] [TIFF OMITTED] T3638.099

[GRAPHIC] [TIFF OMITTED] T3638.100

[GRAPHIC] [TIFF OMITTED] T3638.101

[GRAPHIC] [TIFF OMITTED] T3638.102

[GRAPHIC] [TIFF OMITTED] T3638.103

[GRAPHIC] [TIFF OMITTED] T3638.104

[GRAPHIC] [TIFF OMITTED] T3638.105

[GRAPHIC] [TIFF OMITTED] T3638.106

[GRAPHIC] [TIFF OMITTED] T3638.107

[GRAPHIC] [TIFF OMITTED] T3638.108

[GRAPHIC] [TIFF OMITTED] T3638.109

[GRAPHIC] [TIFF OMITTED] T3638.110

[GRAPHIC] [TIFF OMITTED] T3638.111

[GRAPHIC] [TIFF OMITTED] T3638.112

[GRAPHIC] [TIFF OMITTED] T3638.113

[GRAPHIC] [TIFF OMITTED] T3638.114

[GRAPHIC] [TIFF OMITTED] T3638.115

[GRAPHIC] [TIFF OMITTED] T3638.116

[GRAPHIC] [TIFF OMITTED] T3638.117

[GRAPHIC] [TIFF OMITTED] T3638.118

[GRAPHIC] [TIFF OMITTED] T3638.119

                                   - 

</pre></body></html>
